No.
IN THE SUPREME COURT OF THE UNITED STATES

■

GREGORY BARTUNEK,
Petitioner,
v.

HALL COUNTY NEBRASKA AND TODD BAHENSKY,
Respondents.

On Petition for a Writ of Certiorari to the
United States Coiurt of Appeals for the Eighth- Circuit

APPENDIX

Gregory P. Bartunek
29948-047
Federal Correctional Institution
P.0. Box 9000
Seagoville, TX 75159

®ntteb States? Court of Appeals;
Jfor tfjc Cigfjtl) Circuit

No. 20-1880

Gregory Bartunek
Plaintiff - Appellant
v.
Hall County, Nebraska; Todd Bahensky
Defendants - Appellees
United States of America; Unknown Person
Defendants
Appeal from United States District Court
for the District of Nebraska - Omaha
Submitted: October 30, 2020
Filed: November 4, 2020
[Unpublished]
Before LOKEN, GRUENDER, and GRASZ, Circuit Judges.

PER CURIAM.

Appendix [1]

Gregory Bartunek appeals the district court’s1 denial of appointed counsel and
adverse grant of summary judgment in his pro se 42 U.S.C. § 1983 action. Initially,
after careful review, we conclude that the district court did not abuse its discretion in
denying Bartunek’s request for appointed counsel after considering the relevant
factors. See Ward v. Smith, 721 F.3d 940, 942 (8th Cir. 2013).
Further, having reviewed the record de novo, we conclude that the district court
properly granted summary judgment to defendants. See Steams v. Inmate Servs.
Corp., 957 F.3d 902,906 (8th Cir. 2020) (standard of review). Specifically, as to the
conditions-of-confinement claims while Bartunek was a pretrial detainee, we agree
with the district court that the undisputed evidence demonstrated the prison
temperature and sleeping arrangements were not punitive. See icf at 906-08
(discussing the relevant standards); Ferguson v. Cape Girardeau Cty., 88 F.3d 647,
650 (8th Cir. 1996); Green v. Baron, 879 F.2d 305, 309-10 (8th Cir. 1989). We also
agree that the lockdown served a legitimate governmental purpose of maintaining the
ongoing safety and order in the facility. See Bell v. Wolfish, 441 U.S. 520, 544-48
(1979). As to the medical deliberate-indifference claims, we agree that Bartunek
failed to demonstrate defendant Todd Bahensky was deliberately indifferent to his
serious medical needs, for the reasons the district court explained. See Johnson v.
Leonard, 929 F.3d 569, 575 (8th Cir. 2019). Furthermore, we conclude Bartunek’s
First Amendment free-exercise claim failed because he failed to demonstrate that his
religious practice was substantially burdened, or that he took advantage of alternative
means of exercising his religion. See Patel v. U.S. Bureau of Prisons, 515 F.3d 807,
813-15 (8th Cir. 2008). Because Bartunek failed to demonstrate any constitutional
violation, the district court properly dismissed the official-capacity claims against
Bahensky and the claims against the county. See Whitney v. City of St. Louis, 887
F.3d 857, 860-61 (8th Cir. 2018).

'The Honorable Richard G. Kopf, United States District Judge for the District
of Nebraska.
-2-

Accordingly, the judgment of the district court is affirmed. See 8th Cir. R.
47B.

-3-

AMENDMENT I
Congress shall make no law respecting an establishment of relition/
or prohibiting the free exercise thereof, or abridging the freedoem of speech,
or of the press; or the right of the people peaceably to assemble, and to
petition the Government for redress of grievances.
Appendix [2]

AMENDMENT V
No person shall be held to answer for capital or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject for
the same offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without the due process of law; nor
shall private property be taken fro public use, without just compensation.
Appendix [3]

AMENDMENT XIV
(Section 1.)
All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privleges or immunities of the citizents of the United States;
nor ahall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal
protection of laws.
Appendix [4]

§ 2252. Certain activities relating to material involving the sexual
exploitation of minors
(a) Any person who—
(1) knowingly transports or ships using any means or facility of interstate or foreign commerce or
in or affecting interstate or foreign commerce by any means including by computer or mails, any visual
depiction, if—
(A) the producing of such visual depiction involves the use of a minor engaging in
sexually explicit conduct; and
(B) such visual depiction is of such conduct;
(2) knowingly receives, or distributes, any visual depiction using any means or facility of
interstate or foreign commerce or that has been mailed, or has been shipped or transported in or
affecting interstate or foreign commerce, or which contains materials which have been mailed or so
shipped or transported, by any means including by computer, or knowingly reproduces any visual
depiction for distribution using any means or facility Of interstate or foreign commerce or in or affecting
interstate or foreign commerce by any means including by computer or through the mails, if—
(A) the producing of such visual depiction involves the use of a minor engaging in
sexually explicit conduct; and
(B) such visual depiction is of such conduct;
(3) either—
(A) in the special
or building owned by, leased to,
United States, or in the Indian
knowingly sells or possesses with

maritime and territorial jurisdiction of the United States, or on any land
or otherwise used by or under the control of the Government of the
country as defined in section 1151 of this title [18 USCS § 1151],
intent to sell any visual depiction; or

(B) knowingly sells or possesses with intent to sell any visual depiction that has been
mailed, shipped, or transported using any means or facility of interstate or foreign commerce, or has
been shipped or transported in or affecting interstate or foreign commerce, or which was produced using
materials which have been mailed or so shipped or transported using any means or facility of interstate
or foreign commerce, including by computer, if—
(i) the producing of such visual depiction involves the use of a minor engaging in
sexually explicit conduct; and
(ii) such visual depiction is of such conduct; or
(4) either—
(A) in the special maritime and territorial jurisdiction of the United States, or on any land

USCS

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. AH rights reserved. Use of this product is subject to the restrictions
and terms-and conditions of the Matthew Bender Master Agreement.

Appendix [5]

29948047

(A) took reasonable steps to destroy each such visual depiction; or
(B) reported the matter to a law enforcement agency and afforded that agency access to
each such visual depiction.

uses

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

§ 2252A. Certain activities relating to material constituting or containing
child pornography
(a) Any person who—
(1) knowingly mails, or transports or ships using any means or facility of interstate or foreign
commerce or in or affecting interstate or foreign commerce by any means, including by computer, any
child pornography;
(2) knowingly receives or distributes—
(A) any child pornography using any means or facility of interstate or foreign commerce
or that has been mailed, or has been shipped or transported in or affecting interstate or foreign
commerce by any means, including by computer; or
(B) any material that contains child pornography using any means or facility of interstate
or foreign commerce or that has been mailed, or has been shipped or transported in or affecting
interstate or foreign commerce by any means, including by computer;
(3) knowingly—
(A) reproduces any child pornography for distribution through the mails, or using any
means or facility of interstate or foreign commerce or in or affecting interstate or foreign commerce by
any means, including by computer; or
(B) advertises, promotes, presents, distributes, or solicits through the mails, or using any
means or facility of interstate or foreign commerce or in or affecting interstate or foreign commerce by
any means, including by computer, any material or purported material in a manner that reflects the
belief, or that is intended to cause another to believe, that the material or purported material is, or
contains—
(i) an obscene visual depiction of a minor engaging in sexually explicit conduct;
or
(ii) a visual depiction of an actual minor engaging in sexually explicit conduct;
(4) either—
(A) in the special maritime and territorial jurisdiction of the United States, or on any land
or building owned by, leased to, or otherwise used by or under the control of the United States
Government, or in the Indian country (as defined in section 1151 [18 USCS § 1151]), knowingly sells or
possesses with the intent to sell any child pornography; or
(B) knowingly sells or possesses with the intent to sell any child pornography that has
been mailed, or shipped or transported using any means or facility of interstate or foreign commerce or
in or affecting interstate or foreign commerce by any means, including by computer, or that was
produced using materials that have been mailed, or shipped or transported in or affecting interstate or

USCS

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Appendix [6]

2994804?”

foreign commerce by any means, including by computer;
(5) either—
(A) in the special maritime and territorial jurisdiction of the United States, or on any land
or building owned by, leased to, or otherwise used by or under the control of the United States
Government, or in the Indian country (as defined in section 1151 [18 USCS § 1151]), knowingly
possesses, or knowingly accesses with intent to view, any book, magazine, periodical, film, videotape,
computer disk, or any other material that contains an image of child pornography; or
(B) knowingly possesses, or knowingly accesses with intent to view, any book,
magazine, periodical, film, videotape, computer disk, or any other material that contains an image of
child pornography that has been mailed, or shipped or transported using any means or facility of
interstate or foreign commerce or in or affecting interstate or foreign commerce by any means, including
by computer, or that was produced using materials that have been mailed, or shipped or transported in or
affecting interstate or foreign commerce by any means, including by computer;
(6) knowingly distributes, offers, sends, or provides to a minor any visual depiction, including any
photograph, film, video, picture, or computer generated image or picture, whether made or produced by
electronic, mechanical, or other means, where such visual depiction is, or appears to be, of a minor
engaging in sexually explicit conduct—
(A) that has been mailed, shipped, or transported using any means or facility of interstate
or foreign commerce or in or affecting interstate or foreign commerce by any means, including by
computer;
(B) that was produced using materials that have been mailed, shipped, or transported in
or affecting interstate or foreign commerce by any means, including by computer; or
(C) which distribution, offer, sending, or provision is accomplished using the mails or any
means or facility of interstate or foreign commerce,

for purposes of inducing or persuading a minor to participate in any activity that is illegal; or
(7) knowingly produces with intent to distribute, or distributes, by any means, including a
computer, in or affecting interstate or foreign commerce, child pornography that is an adapted or
modified depiction of an identifiable minor.

shall be punished as provided in subsection (b); or

(b) (1) Whoever violates, or attempts or conspires to violate, paragraph (1), (2), (3), (4), or (6) of
subsection (a) shall be fined under this title and imprisoned not less than 5 years and not more than 20
years, but, if such person has a prior conviction under this chapter, section 1591 [18 USCS § 1591],
chapter 71, chapter 109A, or chapter 117 [18 USCS §§ 2251 et seq., §§ 1460 et seq., 2241 et seq., or
2421 et seq.], or under section 920 of title 10 (article 120 of the Uniform Code of Military Justice), or
under the laws of any State relating to aggravated sexual abuse, sexual abuse, or abusive sexual
conduct involving a minor or ward, or the production, possession, receipt, mailing, sale, distribution,

USCS

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

shipment, or transportation of child pornography, or sex trafficking of children, such person shall be fined
under this title and imprisoned for not less than 15 years nor more than 40 years.
(2) Whoever violates, or attempts or conspires to violate, subsection (a)(5) shall be fined under
this title or imprisoned not more than 10 years, or both, but, if any image of child pornography involved in
the offense involved a prepubescent minor or a minor who had not attained 12 years of age, such person
shall be fined under this title and imprisoned for not more than 20 years, or if such person has a prior
conviction under this chapter, chapter 71, chapter 109A, or chapter 117 [18 USCS §§ 2251 et seq., §§
1460 et seq., 2241 et seq., or 2421 et seq.], or under section 920 of title 10 (article 120 of the Uniform
Code of Military Justice), or under the laws of any State relating to aggravated sexual abuse, sexual
abuse, or abusive sexual conduct involving a minor or ward, or the production, possession, receipt,
mailing, sale, distribution, shipment, or transportation of child pornography, such person shall be fined
under this title and imprisoned for not less than 10 years nor more than 20 years.
(3) Whoever violates, or attempts or conspires to violate, subsection (a)(7) shall be fined under
this title or imprisoned not more than 15 years, or both.
(c) It shall be an affirmative defense to a charge of violating paragraph (1), (2), (3)(A), (4), or (5) of
subsection (a) that—

(1) (A) the alleged child pornography was produced using an actual person or persons engaging
in sexually explicit conduct; and
(B) each such person was an adult at the time the material was produced; or
(2) the alleged child pornography was not produced using any actual minor or minors.

No affirmative defense under subsection (c)(2) shall be available in any prosecution that
involves child pornography as described in section 2256(8)(C) [18 USCS § 2256(8)(C)]. A
defendant may not assert an affirmative defense to a charge of violating paragraph (1), (2), (3)(A),
(4), or (5) of subsection (a) unless, within the time provided for filing pretrial motions or at such
time prior to trial as the judge may direct, but in no event later than 14 days before the
commencement of the trial, the defendant provides the court and the United States with notice of
the intent to assert such defense and the substance of any expert or other specialized testimony or
evidence upon which the defendant intends to rely. If the defendant fails to comply with this
subsection, the court shall, absent a finding of extraordinary circumstances that prevented timely
compliance, prohibit the defendant from asserting such defense to a charge of violating paragraph
(1), (2), (3)(A), (4), or (5) of subsection (a) or presenting any evidence for which the defendant
has failed to provide proper and timely notice.
(d) Affirmative defense.
(a)(5) that the defendant—

It shall be an affirmative defense to a charge of violating subsection

(1) possessed less than three images of child pornography; and

USCS

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

(2) promptly and in good faith, and without retaining or allowing any person, other than a law
enforcement agency, to access any image or copy thereof—
(A) took reasonable steps to destroy each such image; or
(B) reported the matter to a law enforcement agency and afforded that agency access to
each such image.
(e) Admissibility of evidence.
On motion of the government, in any prosecution under this
chapter [18 USCS §§ 2251 et seq.] or section 1466A [18 USCS § 1466A], except for good cause shown,
the name, address, social security number, or other nonphysical identifying information, other than the
age or approximate age, of any minor who is depicted in any child pornography shall not be admissible
and may be redacted from any otherwise admissible evidence, and the jury shall be instructed, upon
request of the United States, that it can draw no inference from the absence of such evidence in deciding
whether the child pornography depicts an actual minor.

(f) Civil remedies.
(1) In general. Any person aggrieved by reason of the conduct prohibited under subsection (a) or
(b) or section 1466A [18 USCS § 1466A] may commence a civil action for the relief set forth in
paragraph (2).
(2) Relief. In any action commenced in accordance with paragraph (1), the court may award
appropriate relief, including—
(A) temporary, preliminary, or permanent injunctive relief;
(B) compensatory and punitive damages; and
(C) the costs of the civil action and reasonable fees for attorneys and expert witnesses,
(g) Child exploitation enterprises.
(1) Whoever engages in a child exploitation enterprise shall be fined under this title and
imprisoned for any term of years not less than 20 or for life.
(2) A person engages in a child exploitation enterprise for the purposes of this section if the
person violates section 1591 [18 USCS § 1591], section 1201 [18 USCS § 1201] if the victim is a minor,
or chapter 109A [18 USCS §§ 2241 et seq.] (involving a minor victim), 110 [18 USCS §§ 2251 et seq.]
(except for sections 2257 and 2257A [18 USCS §§ 2257 and 2257A]), or 117 [18 USCS §§ 2421 et seq.]
(involving a minor victim), as a part of a series of felony violations constituting three or more separate
incidents and involving more than one victim, and commits those offenses in concert with three or more
other persons.

USCS

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

§ 3142. Release or detention of a defendant pending trial
(a) In general. Upon the appearance before a judicial officer of a person charged with an offense,
the judicial officer shall issue an order that, pending trial, the person be—
(1) Released on personal recognizance or upon execution of an unsecured appearance bond,
under subsection (b) of this section;
(2) released on a condition or combination of conditions under subsection (c) of this section;
(3) temporarily detained to permit revocation of conditional release, deportation, or exclusion
under subsection (d) of this section; or
(4) detained under subsection (e) of this section.
(b) Release on personal recognizance or unsecured appearance bond. The judicial officer
shall order the pretrial release of the person on personal recognizance, or upon execution of an
unsecured appearance bond in an amount specified by the court, subject to the condition that the person
not commit a Federal, State, or local crime during the period of release and subject to the condition that
the person cooperate in the collection of a DNA sample from the person if the collection of such a
sample is authorized pursuant to section 3 of the DNA Analysis Backlog Elimination Act of 2000 (42
U.S.C. 14135a), unless the judicial officer determines that such release will not reasonably assure the
appearance of the person as required or will endanger the safety of any other person or the community.

(c) Release on conditions.
(1) If the judicial officer determines that the release described in subsection (b) of this section will
not reasonably assure the appearance of the person as required or will endanger the safety of any other
person or the community, such judicial officer shall order the pretrial release of the person—
(A) subject to the condition that the person not commit a Federal, State, or local crime
during the period of release and subject to the condition that the person cooperate in the collection of a
DNA sample from the person if the collection of such a sample is authorized pursuant to section 3 of the
DNA Analysis Backlog Elimination Act of 2000 (42 U.S.C. 14135a); and
(B) subject to the least restrictive further condition, or combination of conditions, that
such judicial officer determines will reasonably assure the appearance of the person as required and the
safety of any other person and the community, which may include the condition that the person—
(i) remain in the custody of a designated person, who agrees to assume
supervision and to report any violation of a release condition to the court, if the designated person is able
reasonably to assure the judicial officer that the person will appear as required and will not pose a danger
to the safety of any other person or the community;
(ii) maintain employment, or, if unemployed, actively seek employment;
(iii) maintain or commence an educational program;

uses

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Appendix [7]

29948047

(iv) abide by specified restrictions on personal associations, place of abode, or
travel;
(v) avoid all contact with an alleged victim of the crime and with a potential
witness who may testify concerning the offense;
(vi) report on a regular basis to a designated law enforcement agency, pretrial
services agency, or other agency;
(vii) comply with a specified curfew;
(viii) refrain from possessing a firearm, destructive device, or other dangerous
weapon;
(ix) refrain from excessive use of alcohol, or any use of a narcotic drug or other
controlled substance, as defined in section 102 of the Controlled Substances Act (21 U.S.C. 802), without
a prescription by a licensed medical practitioner;
(x) undergo available medical, psychological, or psychiatric treatment, including
treatment for drug or alcohol dependency, and remain in a specified institution if required for that
purpose;
(xi) execute an agreement to forfeit upon failing to appear as required, property
of a sufficient unencumbered value, including money, as is reasonably necessary to assure the
appearance of the person as required, and shall provide the court with proof of ownership and the value
of the property along with information regarding existing encumbrances as the judicial office may require;
(xii) execute a bail bond with solvent sureties; who will execute an agreement to
forfeit in such amount as is reasonably necessary to assure appearance of the person as required and
shall provide the court with information regarding the value of the assets and liabilities of the surety if
other than an approved surety and the nature and extent of encumbrances against the surety’s property;
such surety shall have a net worth which shall have sufficient unencumbered value to pay the amount of
the bail bond;
(xiii) return to custody for specified hours following release for employment,
schooling, or other limited purposes; and
(xiv) satisfy any other condition that is reasonably necessary to assure the
appearance of the person as required and to assure the safety of any other person and the community.

In any case that involves a minor victim under section 1201, 1591, 2241, 2242, 2244(a)(1),
2245, 2251, 2251A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(l), 2252A(a)(2),
2252A(a)(3), 2252A(a)(4), 2260, 2421, 2422, 2423, or 2425 of this title [18 USCS § 1201, 1591,
2241, 2242, 2244(a)(1), 2245, 2251, 2251A, 2252(a)(1), (2), (3), 2252A(a)(l), (2), (3), (4),
2260, 2421, 2422, 2423, or 2425], or a failure to register offense under section 2250 of this title
[18 USCS § 2250], any release order shall contain, at a minimum, a condition of electronic
monitoring and each of the conditions specified at subparagraphs (iv), (v), (vi), (vii), and (viii).
USCS

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

(2) The judicial officer may not impose a financial condition that results in the pretrial detention
of the person.
(3) The judicial officer may at any time amend the order to impose additional or different
conditions of release.

(d) Temporary detention to permit revocation of conditional release, deportation, or
exclusion. If the judicial officer determines that—
(1) such person—
(A) is, and was at the time the offense was committed, on—
(i) release pending trial for a felony under Federal, State, or local law;
(ii) release pending imposition or execution of sentence, appeal of sentence or
conviction, or completion of sentence, for any offense under Federal, State, or local law; or
(iii) probation or parole for any offense under Federal, State, or local law; or
(B) is not a citizen of the United States or lawfully admitted for permanent residence, as
defined in section 101(a)(20) of the Immigration and Nationality Act (8 U.S.C. 1101(a)(20)); and
(2) the person may flee or pose a danger to any other person or the community;

such judicial officer shall order the detention of the person, for a period of not more than ten
days, excluding Saturdays, Sundays, and holidays, and direct the attorney for the Government to
notify the appropriate court, probation or parole official, or State or local law enforcement
official, or the appropriate official of the Immigration and Naturalization Service. If the official
fails or declines to take the person into custody during that period, the person shall be treated in
accordance with the other provisions of this section, notwithstanding the applicability of other
provisions of law governing release pending trial or deportation or exclusion proceedings. If
temporary detention is sought under paragraph (1)(B) of this subsection, the person has the
burden of proving to the court such person’s United States citizenship or lawful admission for
permanent residence.
(e) Detention.
(1) If, after a hearing pursuant to the provisions of subsection (f) of this section, the judicial
officer finds that no condition or combination of conditions will reasonably assure the appearance of the
person as required and the safety of any other person and the community, such judicial officer shall order
the detention of the person before trial.
(2) In a case described in subsection (f)(1) of this section, a rebuttable presumption arises that
no condition or combination of conditions will reasonably assure the safety of any other person and the
community if such judicial officer finds that—

uses

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

28948047

(A) the person has been convicted of a Federal offense that is described in subsection
(f)(1) of this section, or of a State or local offense that would have been an offense described in
subsection (f)(1) of this section if a circumstance giving rise to Federal jurisdiction had existed;
(B) the offense described in subparagraph (A) was committed while the person was on
release pending trial for a Federal, State, or local offense; and
(C) a period of not more than five years has elapsed since the date of conviction, or the
release of the person from imprisonment, for the offense described in subparagraph (A), whichever is
later.
(3) Subject to rebuttal by the person, it shall be presumed that no condition or combination of
conditions will reasonably assure the appearance of the person as required and the safety of the
community if the judicial officer finds that there is probable cause to believe that the person committed—
(A) an offense for which a maximum term of imprisonment of ten years or more is
prescribed in the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import
and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS § 70501 et seq.];
(B) an offense under section 924(c), 956(a), or 2332b of this title [18 USCS § 924(c),
956(a), or 2332b];
(C) an offense listed in section 2332b(g)(5)(B) of title 18, United States Code [18 USCS
§ 2332b(g)(5)(B)], for which a maximum term of imprisonment of 10 years or more is prescribed;
(D) an offense under chapter 77 of this title [18 USCS §§ 1581 et seq.] for which a
maximum term of imprisonment of 20 years or more is prescribed; or
2244(a)(1),
2252A(a)(3),
2242, 2244,
2252A(a)(3),

(E) an offense involving a minor victim under section 1201, 1591, 2241, 2242,
2245, 2251, 2251 A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1), 2252A(a)(2),
2252A(a)(4), 2260, 2421, 2422, 2423, or 2425 of this title [18 USCS § 1201, 1591, 2241,
(a)(1), 2245, 2251, 2251 A, 2252(a)(1), 2252(a)(2), 2252(a)(3), 2252A(a)(1), 2252A(a)(2),
2252A(a)(4), 2260, 2421, 2422, 2423, or 2425].

(f) Detention hearing. The judicial officer shall hold a hearing to determine whether any condition
or combination of conditions set forth in subsection (c) of this section will reasonably assure the
appearance of the person as required and the safety of any other person and the community—
(1) upon motion of the attorney for the Government, in a case that involves—
(A) a crime of violence, a violation of section 1591 [18 USCS § 1591], or an offense
listed in section 2332b(g)(5)(B) [18 USCS § 2332b(g)(5)(B)] for which a maximum term of imprisonment
of 10 years or more is prescribed;
(B) an offense for which the maximum sentence is life imprisonment or death;
(C) an offense for which a maximum term of imprisonment of ten years or more is
prescribed in the Controlled Substances Act (21 U.S.C. 801 et seq.), the Controlled Substances Import
and Export Act (21 U.S.C. 951 et seq.), or chapter 705 of title 46 [46 USCS §§ 70501 et seq.];

USCS

4

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

(D) any felony if the person has been convicted of two or more offenses described in
subparagraphs (A) through (C) of this paragraph, or two or more State or local offenses that would have
been offenses described in subparagraphs (A) through (C) of this paragraph if a circumstance giving rise
to Federal jurisdiction had existed, or a combination of such offenses; or
(E) any felony that is not otherwise a crime of violence that involves a minor victim or
that involves the possession or use of a firearm or destructive device (as those terms are defined in
section 921 [18 USCS § 921]), or any other dangerous weapon, or involves a failure to register under
section 2250 of title 18, United States Code [18 USCS § 2250]; or
(2) upon motion of the attorney for the Government or upon the judicial officer’s own motion, in a
case that involves—
(A) a serious risk that such person will flee; or
(B) a serious risk that the person will obstruct or attempt to obstruct justice, or threaten,
injure, or intimidate, or attempt to threaten, injure, or intimidate, a prospective witness or juror.

The hearing shall be held immediately upon the person’s first appearance before the judicial
officer unless that person, or the attorney for the Government, seeks a continuance. Except for
good cause, a continuance on motion of the person may not exceed five days (not including any
intermediate Saturday, Sunday, or legal holiday), and a continuance on motion of the attorney for
the Government may not exceed three days (not including any intermediate Saturday, Sunday, or
legal holiday). During a continuance, the person shall be detained, and the judicial officer, on
motion of the attorney for the Government or sua sponte, may order that, while in custody, a
person who appears to be a narcotics addict receive a medical examination to determine whether
such person is an addict. At the hearing, the person has the right to be represented by counsel,
and, if financially unable to obtain adequate representation, to have counsel appointed. The person
shall be afforded an opportunity to testify, to present witnesses, to cross-examine witnesses who
appear at the hearing, and to present information by,proffer or otherwise. The rules concerning
admissibility of evidence in criminal trials do not apply to the presentation and consideration of
information at the hearing. The facts the judicial officer uses to support a finding pursuant to
subsection (e) that no condition or combination of conditions will reasonably assure the safety of
any other person and the community shall be supported by clear and convincing evidence. The
person may be detained pending completion of the hearing. The hearing may be reopened, before
or after a determination by the judicial officer, at any time before trial if the judicial officer finds
that information exists that was not known to the movant at the time of the hearing and that has a
material bearing on the issue whether there are conditions of release that will reasonably assure
the appearance of the person as required and the safety of any other person and the community.
(g) Factors to be considered.
The judicial officer shall, in determining whether there are
conditions of release that will reasonably assure the appearance of the person as required and the safety
of any other person and the community, take into account the available information concerning—

USCS

5

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

(1) the nature and circumstances of the offense charged, including whether the offense is a
crime of violence, a violation of section 1591 [18 USCS § 1591], a Federal crime of terrorism, or
involves a minor victim or a controlled substance, firearm, explosive, or destructive device;
(2) the weight of the evidence against the person;
(3) the history and characteristics of the person, including—
(A) the person’s character, physical and mental condition, family ties, employment,
financial resources, length of residence in the community, community ties, past conduct, history relating
to drug or alcohol abuse, criminal history, and record concerning appearance at court proceedings; and
(B) whether, at the time of the current offense or arrest, the person was on probation, on
parole, or on other release pending trial, sentencing, appeal, or completion of sentence for an offense
under Federal, State, or local law; and
(4) the nature and seriousness of the danger to any person or the community that would be
posed by the person’s release. In considering the conditions of release described in subsection
(c)(1)(B)(xi) or (c)(1)(B)(xii) of this section, the judicial officer may upon his own motion, or shall upon the
motion of the Government, conduct an inquiry into the source of the property to be designated for
potential forfeiture or offered as collateral to secure a bond, and shall decline to accept the designation,
or the use as collateral, of property that, because of its source, will not reasonably assure the appearance
of the person as required.
(h) Contents of release order.
section, the judicial officer shall—

In a release order issued under subsection (b) or (c) of this

(1) include a written statement that sets forth all the conditions to which the release is subject, in
a manner sufficiently clear and specific to serve as a guide for the person’s conduct; and
(2) advise the person of—
(A) the penalties for violating a condition of release, including the penalties for
committing an offense while on pretrial release;
(B) the consequences of violating a condition of release, including the immediate
issuance of a warrant for the person’s arrest; and
(C) sections 1503 of this title [18 USCS § 1503] (relating to intimidation of witnesses,
jurors, and officers of the court), 1510 [18 USCS § 1510] (relating to obstruction of criminal
investigations), 1512 [18 USCS § 1512] (tampering with a witness, victim, or an informant), and 1513 [18
USCS § 1513] (retaliating against a witness, victim, or an informant).
(i) Contents of detention order. In a detention order issued under subsection (e) of this section,
the judicial officer shall—
(1) include written findings of fact and a written statement of the reasons for the detention;
(2) direct that the person be committed to the custody of the Attorney General for confinement in

USCS

6

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29948047

a corrections facility separate, to the extent practicable, from persons awaiting or serving sentences or
being held in custody pending appeal;
(3) direct that the person be afforded reasonable opportunity for private consultation with
counsel; and
(4) direct that, on order of a court of the United States or on request of an attorney for the
Government, the person in charge of the corrections facility in which the person is confined deliver the
person to a United States marshal for the purpose of an appearance in connection with a court
proceeding.

The judicial officer may, by subsequent order, permit the temporary release of the person, in
the custody of a United States marshal or another appropriate person, to the extent that the
judicial officer determines such release to be necessary for preparation of the person’s defense or
for another compelling reason.
(j) Presumption of innocence. Nothing in this section shall be construed as modifying or limiting
the presumption of innocence.

uses

7

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

29846047'

§ 2000cc. Protection of land use as religious exercise
(a) Substantial burdens.
(1) General rule. No government shall impose or implement a land use regulation in a manner
that imposes a substantial burden on the religious exercise of a person, including a religious assembly or
institution, unless the government demonstrates that imposition of the burden on that person, assembly,
or institution—
(A) is in furtherance of a compelling governmental interest; and
(B) is the least restrictive means of furthering that compelling governmental interest.
(2) Scope of application. This subsection applies in any case in which—
(A) the substantial burden is imposed in a program or activity that receives Federal
financial assistance, even if the burden results from a rule of general applicability;
(B) the substantial burden affects, or removal of that substantial burden would affect,
commerce with foreign nations, among the several States, or with Indian tribes, even if the burden
results from a rule of general applicability; or
(C) the substantial burden is imposed in the implementation of a land use regulation or
system of land use regulations, under which a government makes, or has in place formal or informal
procedures or practices that permit the government to make, individualized assessments of the proposed
uses for the property involved.

(b) Discrimination and exclusion.
(1) Equal terms. No government shall impose or implement a land use regulation in a manner
that treats a religious assembly or institution on less than equal terms with a nonreligious assembly or
institution.
(2) Nondiscrimination. No government shall impose or implement a land use regulation that
discriminates against any assembly or institution on the basis of religion or religious denomination.
(3) Exclusions and limits. No government shall impose or implement a land use regulation that—
(A) totally excludes religious assemblies from a jurisdiction; or
(B) unreasonably limits religious assemblies, institutions, or structures within a
jurisdiction.

uses

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Appendix [8]

29948047

8:18-cv-00489-RGK-PRSE Doc # 36-1 Filed: 01/28/20 Page 1 of 3 - Page ID # 537

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
GREGORY P. BARTUNEK,

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,

vs.
HALL COUNTY, NEBRASKA, and
TODD BAHENSKY, in his individual
and official capacities,
Defendants.

Case No. 8:18CV489

SUPPLEMENTAL AFFIDAVIT OF TODD BAHENSKY,
DIRECTOR OF HALL COUNTY DEPARTMENT OF CORRECTIONS
STATE OF NEBRASKA

)

COUNTY OF HALL

)

)

ss

I, Todd Bahensky, being first duly sworn upon oath, depose and state as follows:

v

£

!>
v

. V

%

This affidavit is intended to explain the basis for the classification and housing

h

?/

status of Plaintiff Gregory Bartunek during his time at the HCDC.

£

i

e
«
;

?

2v

At the time he was booked at the HCDC, Plaintiff Bartunek was 63 years of age
and taller than average, with a height of six feet and two inches.

3,

Plaintiff was also a registered sex offender at the time of his booking, a status
which is commonly abbreviated on jail paperwork as “RSO.”

4.

Advanced age and height are uniformly used factors in our facility that are
considered to medically indicate a need for a lower bunk assignment, because it

1

Appendix [9]

8.18-CV-00489-RGK-PRSE Doc #36-1 Filed: 01/28/20 Page 2 of 3 - Page ID # 538

is generally physically easier for persons having those characteristics to not have
to climb to an upper bunk.
5,

For as long as I am aware, it has been standard management procedure at the
HCDC to uniformly and always house registered sex offenders in the maximum
security unit (D Unit), for reason of their own safety, security, and protection. Even
if the inmate wishes to be moved to a different unit, this cannot be permitted
because the desire of the inmate cannot outweigh the substantial risks to the safety
of the inmate population as a whole, and we aim for consistency in classification
standards. In my experience, inmates who are RSOs face much more significant
threats to their safety if they are housed in any less secure unit available at our
facility.

6.

At the time that Plaintiff Bartunek was booked into the HCDC, there were no lower
bunks available in D unit.

7;

As a result of the above, Plaintiff Bartunek’s classification status was initially
overridden “for medical reasons” and he was housed in the infirmary in a lower
bunk until such time as a lower bunk could be provided in D unit. Once a lower
bunk became available in that unit, Plaintiff Bartunek’s classification status was
overridden for reason of his “RSO” status.

8;

Plaintiff Bartunek’s classification status is accurately reflected in the pertinent
forms contained in his inmate file previously submitted as Exhibit C to my original
affidavit filed in this case.

FURTHER AFFIANT SAITH NOT
2

i

8:18-cv-00489-RGK-PRSE Doc #36-1 Filed: 01/28/20 Page 3 of 3 - Page ID # 539

/-

am.

fold: Bahensky
Subscribed and sworn to before me this 28th day of January, 2020;
•i ■
;
;

Notary Public

3

M

AARON GRAY
^^^0^28,2023,

8:18-cv-00489-RGK-PRSE Doc # 33-8 Filed: 12/30/19 Page 11 of 14 - Page ID # 444

----------Forwarded message-------- FromHBa'rb Brunkow <hhrunkow@1eg.ne.gov>
Date: Thu, Jul 5,2018 at 10:50 AM
Subject: Re: Gregory Bartunek
To: Craig Gottschalk <craigg@ha11conntyne.gov>
Thanks—I appreciate the input.
On Thu, Jul 5,2018 at 5:12 AM, Craig Gottschalk <craigg@hallcountyne.gov> wrote:
Barb,

Here are the responses to your questions I can give you right now. I will address the others when I
gather some information

1. Mr. Bartunek was brought to Hall County per the US Marshal's decision to house
him here. We have no impact on that decision to house him here.
2. I am not aware of any request for an eye exam submitted by Mr. Bartunek. That
would be a request he'd need to submit to the US Marshals and they would determine
Appendix [10]

11

8:18-cv-00489-RGK-PRSE Doc # 33-8 Filed: 12/30/19 Page 12 of 14 - Page ID # 445
the need or schedule to do so.
3. Our facility does not do teeth cleanings or checkups. Our dental services are
. provided for emergency need situations and not routine maintenance.
4. Our facility lighting levels meet all Nebraska State Standards and the schedule for
such (11pm Lights out - 5am Lights on) is our own policy ensuring ample lights out
opportunity for sleep.
5. Mr. Bartunek's time out of cell is correct and a facility management need due to
keep separate, classification and other operational needs. This is a county by county
policy choice and inmate management parameter.
6. Mr. Bartunek filed a grievance claiming zero church services since his arrival in
January. It was noted to him that on 11 occasions Church was offered for his pod and
he did not choose to attend. In one instance he chose to shower instead of attend.
On the other scheduled dates the volunteers leading the services did not arrive to hold
the services. Church services rely completely upon the time and availability of •
volunteers to hold such services and are scheduled weekly.

I will gather a response to the rest of his allegations and get back to you.

Thanks,

Craig Gottschalk
Assistant Director
Hall County Corrections
110 Public Safety Drive
Grand Island. NF 68801

(308) 385-5211
“S&iijten "Pcytfo "

12

8 .8-CV-00489-RGK-PRSE Doc # 13 Filed: 04/04/19 Page 16 of 21 - Page ID # 69
/-??? 7

t,

suM.
CKSArJ

S

Q i/i
OiHg

^o

*

Otr

^

/». u

l is\

//-ft

r

07

c^> -P u e t/

A

1

V/

lx ?

aJ

h^/ \/\j\
Cu.
¥-a\f 1**^1

f

Sj££ia

/ 4ml

t

lAn

Q L(*d

v^>

Tf

/ c-z?

^>^<X

\j-VO(^

j^p-e/uc
*

14/36, ✓ V

C/'OU i/J

^//O

>1**

(m

V^-jjL{

dl yvfc,

^C*giA

f'fSi/( c *4
ftt4 /^3 /

ip&iu

d W vts £
7"'rT‘

y <• ny -

(at/ C

^ t*. ^ o. ^

fCU
V^6vx/ 3

dLiz.tid

4^
^

OV

/^Ov f

Ct (s\

/ n*e^-

4><r
/ 4.,^^-

t eXt u//
^1X3
C

^.4 /?.//,

Appendix [11]

Ik

/0-f. Ji~c C <-

i^ ^-oA/c. D0^2

(as\ ,

|f?

£

^/'oipl^Vy9

Q U cA S’ Ci >V7 ^vt- Oi t>! 1 o

TIT

J~V

//vt^f

dy

h Us t' sj^JLj.

u f7 ^.

2/4 /•^r
3

J-£> i^A

Qt~>^ fix, s ,de^.P )y

t

yO^ / <*»

;«//c
<T/g;

<3

b

{/^q^v ^-A. ,

j^L/ S

J

^/ 0

/ <H-

lirk.'t

k.? < JL ^- L^y

Q)kcj^_

t 4-* *

ip C c.

|^n I

14 O'Y't'V l

4

O^Jl

7

o

"fj6fr<L(<JL

£ ^)

hLo

(/ g

^(ZUs^

I \a-cd

^^>(\^o~t

jb^-L.. ,yy\^A( c<v f
gJs£.,„

X

^ /»- t

^°/c

S'Ct.&.^+e-tsy__ _______ £14

^ l/l & ( oiruy

J if

( L/ g

<*

boPU <zb <* ( cA

iJr-'L s>

.

7

<4 /** C t^Ovt <7

ho h

Pi a <^-e

r?t/cj <z sis'-z ^€P
4^*v

8:18-cv-00489-RGK-PRSE Doc # 33-11 Filed: 12/30/19 Page 1 of 3 - Page ID # 456

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
GREGORY P. BARTUNEK,

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
vs.
HALL COUNTY, NEBRASKA, and
TODD BAHENSKY, in his individual
and official capacities,
Defendants.

Case No. 8:18CV489

i
AFFIDAVIT OF CRAIG GOTTSCHALK
ASSISTANT DIRECTOR OF HALL COUNTY DEPARTMENT OF CORRECTIONS
STATE OF NEBRASKA

)

)
COUNTY OF HALL

ss

)

I, Craig Gottschalk, being first duly sworn upon oath, depose and state as follows:
1.

That I am of lawful age and have personal knowledge of the facts stated herein.

2.

That at all pertinent times, I have served as the Assistant Director of the Hall
County Department of Corrections (HCDC).

3.

That in my capacity as Assistant Jail Director for Hall County, it is within the scope
■ of my job duties to assist in responding to detainee/inmate grievances and appeals
of grievances.

4.

That I have reviewed Exhibits C, D, and G to Director Bahensky’s affidavit in the

1

Appendix [12]

v

■

<
\

8:18-cv-00489-RGK-PRSE Doc # 33-11 Filed: 12/30/19 Page 2 of 3 - Page ID # 457

above-captioned matter. These exhibits include certain responses written by me
to Plaintiff Bartunek’s grievances and grievance appeals, and replies I wrote to
inquiries made by the Ombudsman’s Office related to Plaintiff Bartunek. Each such
response or reply included in this exhibit was written after good faith investigation
of the complaints Plaintiff Bartunek raised in his letters.
5.

That in my review of the portions of Exhibits D and G that were authored by me, I
did discover some inaccuracies for the first time, that I wish to explain. In
approximately June/July of 2018, Plaintiff Bartunek complained, separately in a
grievance and in correspondence to the Ombudsman’s Office, that a weekly
Christian religious service was not available to his unit. I investigated this complaint
in good faith through inquiry with HCDC staff who worked on the floor, however, in
doing so, I accidentally and inadvertently mistook Plaintiff Bartunek for a different
inmate who was housed very near to him in the same maximum security unit. My
investigation revealed that this other inmate, who had been at the facility since
January of 2018, had received eleven (11) opportunities during his stay at the
facility to attend religious programming, but he chose not to attend. I mistakenly
relayed this investigative information to the Ombudsman’s Office, in response^0

r|

its inquiry regarding Bartunek’s complaint to that agency, and in my response jto
if

Plaintiff Bartunek’s grievance on the same topic, when it actually reflected th*!'
\

situation of a different inmate.
6.

That it is accurate that my investigation revealed there were at least eleven (11)
Christian religious programs held at the facility and available to the maximum
security unit from January to June, 2018.

7.

That in the pertinent time period, the HCDC staff had difficulty locating any groups
or persons who were willing to offer religious programs consistently to the
maximum security unit, which is designed to house those accused or convicted of
violent crimes, serious felonies, and those accused of sexual crimes against
children. Even when such programs can be scheduled, the leaders will
unexpectedly cancel or no-show. Because of the amount of time that has now
2

\
/

\

\

• I

...

8:18-cv-00489-RGK-PRSE Doc # 33-11 Filed: 12/30/19 Page 3 of 3 - Page ID # 458

passed, I am unable to determine with certainty how many religious programs were
offered to the maximum security unit during the six month time period of April to
October, 2018 when Bartunek was housed at the facility. But I know such programs
were offered whenever a willing provider could be located to appear. Detainees
and inmates also always have the ability to request that a particular pastor or
religious provider be contacted to visit or call them, but to the best of my
!

knowledge, Plaintiff Bartunek never made such a request.

I

\

8.

That I never took any action to prevent Plaintiff Bartunek from freely exercising his
religion, and am not aware of any other HCDC staff who tried to prevent Plaintiff
Bartunek from freely exercising his religion.

FURTHER AFFIANT SAITH NOT*:
ff GENERAL NOTARY* Stats of Nebmste • |(.
_fjL.
JASON CONLEY
]'
1 :My Comin.Ejtp..OctPti8f 28.2023 I

Subscribed and sworn to -before me this f^^day of December, 2019.,

1^7
5 ry,Public

!
i

I /

t

A

/fa

w

i
t

!/
)

/
/
!
!

/ ;
r'

J
/

K

/

v-

3

(

I

8:18-cv-00489-RGK-PRSE Doc #33-5 Filed: 12/30/19 Page 11 of 117 - Page ID # 295

/■■■■

■
■■

Grievance
For 227639: Gregory Bartunek HCDCGP D D108 on 7/2/2018 9:14:54 AM
Dates and Times are presented in Central Time (US & Canada)

Issue ID: 11444589

Last Status:

Closed by 227639: Gregory Bartunek on 7/3/2018 10:13:24 AM

Last Assigned to:

None on 7/3/2018 6:54:41 AM

i sign up for church very week but it is never held. At Douglas we always had it. what can you do
to help?
Submitted by 227639: Gregory Bartunek HCDCGP DD108 on 7/2/20189:14:54 AM

Mr. Bartunek,
As I explained in my previous response to your grievance - the religious services have been held
multiple times since your arrival and you chose not to attend when offered. You even once
decided to shower instead of attend. Our volunteers who lead the services are not always able to
attend. This last Sunday, July 1, 2018 -1 was told they did not arrive to do so.
thank you,
Craig Gottschalk, Asst Dir
Accepted by Craig Gottschalk on 7/3/2018 6:54:41 AM

Printed 7/22/2019

Page 1 of 1

Appendix [13]

11

P‘, s« %V «+

3V7

HALL COUNTY DEPARTMENT OF CORRECTIONS
INMA TE GRIEVANCE FORM
FORMA DEAGRA VIO RE PRESIDIARIO
Date: *7/ 3 //F Name:
(Feche)
(Nombrej
Housing Unit: £
(Alojamiento de Unidad)

•

E& s\rujsts4 Inmate #:
76 ? p
A
(Presidiario#)

Bunk/Ceil: /OJ <—
(Litera o Criula)

Please describe what RIGHT or PRIVILEGE has been violated:
(Por favor describa que DERECHO O EL PRIVILEGIO han sido violados)
PLEASE PRINT LEGIBLY
(POR FAVOR IMPRIMA LEGIBLEMENTE)

fjL S-fAlt O*

CrAutj

~-eJt

MID <£

t/l4

<0 h nr
c^//

ts-eA-i

(Ac.

~7

C 'fs-S/ c *> <

g-

1*7 »-»J

<l^lu.^c-A

Oif

jA\.srt.f jtcc*s/ C

Please describe a possible SOLUTION to your grievance:
(Por favor describa una SOLUCI^N posible con su agravio:)
PLEASE PRINT LEGIBLY
(POR FAVOR IMPRIMA LEGIBLEMENTE)
C.&-H <► r ALjZ <r-

5V* ^

fX

^.ggAe. / CL

A

r

<9 /•

<3

<L

Inmate’s Signature:
(Ig Firing <fe/ Presidiario:)

CAffle~ 0

3
S

c r-f

C

3 »

*

*************4***gc|ow to be completed by Hall County Department of Corrections staff******************

Forwarded to the Department Grievance Officer by Officer:__________________
Response/Conclusion:

Grievance Officer Signature:
Date Response Issued:

</ 4-t

VI

fit. M:

“Z,W

•Copy to be returned to inmate
^Original to be placed Into inmate file
FORM 51-02.01

Appendix [14]

-Hsg

8:18-cv-00489-RGK-PRSE Doc # 33-4 Filed: 12/30/19 Page 26 of 60 - Page ID # 250
t

;•

v

ki0&

w

•4

11—

*

.T-

TLsi
:

A. .

/4r .‘jfrp:

H*

// - Pc&ui u:4-y .
C

^

(no

ifi:;. iH

w. ■# ■■■-

-

{/tO l'Q.’-4-Tt

il l Yh\y

tvi:^ '-l**.**?
&*• '-/* . &/** *&

hi^A ft**#- jh-mJ'&aLJ- & ;
■tf-arc*«Mfe<

.„.

Oi*>\ r/

*<>! 'i

f <tjaj£fr4^ ^ 1+jS.L tvi 0

fbftj ■*&£**<-X. 'prp.ii>-4e*3&g,W>- .j. '.ilLthuiir&M

fbdstrt

~4

•'‘£jf'.j>}%-1 . '€*{>■

,

i!

fife

.=■

1, Jtj-i&f.

J&.B

■i

,

A

£i

h

(*A ip

n >*

^ _ :-5.: -

Ar.-. e

a-ayt&^v •?
~i-'v

fo»<£

t t -/»

f .;:&?» Wt'jt.<Jkk-*j?

■{

&> mfr+Lf .

.TL .''k.^.^:-.
:•

$$mL

;€*■■■&$' &**>.&* *

TsfapFi*

& -'&6i*bt*A..QsA'" A

: -x'lf
>. _

<Wy/7/^a/

.■.a 'i^/'

i—

;

■:■

qy<p(*e. • jj/vfw

’$<».
':/i's*- f'‘tU*t& I

Z; g/ fe/4^..

r«LDiAIk
fjmliMCl.

>. . . Ut* ;fo*>^..-..:yW.^; U/&*U ',y,-'fcL'.':«<»*

■..-^4;yieM

..dtAkeii'&ej ■ w;. .Jffji-... .■■Ifa 'ti:-

?

.- V •—TxrrJT,-^-:^.-.

'&&

SiL^
;i

r

^ v> *C
.v,:

\^y --ci■*&'■'■{&:JT-:, oizLyy.-

..%::§Kd$b£$^ v/y.w-tJ
r
.

<Sj± &

mL^.

kibiiv;jr :.;a;

jg?a. i<^,;--J»ir-^_--

■vigl-cas.^'e^.

...... Apppndvv [1^]

•j

”

a**-.*-.... ^

,

Jl^V
.tf, MmVr
fe^l X C

• - w

.■Jtii&dL

-.o:.'#1w---^J- ■-- **-*+ £/

\ A l \L4s*f ■ jA/$£. }\:?4
£j&■ ■

£C*a

-J

•'-#'••• • ~"

•?.

€0

26
•••

8:18-cv-00489-RGK-PRSE Doc # 33-4 Filed: 12/30/19 Page 27 of 60 - Page ID # 251
r

t

'

-

,

l/nft i+S &tm^

'Hoi.

i; #3&-Sfc.

JE

KU--

mifeei jf

f

fa hii %•* ■<&

yfe. WMtJ> mrnT&Li
&

_*■-

>

m/zmdkA
4e
-Jk • ;•

**.

i^c ^ . ..

■ -•’-

<

foie

^ «-

...*

q i* t r9:

c //

»

'Lii

•;!>&&g£L

fa
:i;. c

.
*s

ifc.;u ./ < A

ifotif: £kf
i? <

•*'.

£*d

%p -

lyXyjifijf' Wl>4' jt>&

—

».'

' . . /Id / r7l f ■- .

/ y£>4» £ .■.^:*j0-ir/»±L . '4^% t s

rr.

<e*

tfT

•-*

i^^.'|*^a.■ :•■

f*Mbh4sH^Er'-4,'fe'.i> >fc*^ kaf/fr k*4.t b**iiir Jf
. TV ^ h a

';.4--jS.

Ml

wto

---

~~

<-e ^
<■**

/

.>•

:

»>. ^g
... £vU»5
'*J4^P:-j^^
■
WH • pJ*j/ If** ^■4-1-*
fayf-fmrm j 4 tea^C
2
■f’:iii£:~**/f... dek^cid^ tJtf <»fa C */
a, AhM;
f
/HR *?
ffi.. fe,
tifadd*.kaJisySii

-.vrv-*?

kv

:?.

**
4

I

... -ff Uy<i.

3

>v'

=■'

;. In

:-.-.v— -:•: ~

r

.4

abt»*

va, . - r >Sv--i4^ca
V‘~,

”

'

iTV-

’

/v. -.

a7Hr

•/"

.,-$LfZ:iS.+

’tf)/ ;C?4fe>y«s^
*f

5

k>jfe,±:

^5<^c
&i ...pi■k-J'.
■fysi/f\*%Jt:. Aui ir*r+( >g tx* d?^ / y *
v

“

r

^. V .

gr-'sf:3fe -.. JU ... @ rim*
1

-/ r
:

. ' -. . rr^;-r i~— *V.-> ,.

1

y

-

^

*:

:

t*
—j. ■-

•.-. -•

~-

—JgJ

27

8:18-cv-00489-RGK-PRSE Doc # 33-4 Filed: 12/30/19 Page 29 of 60 - Page ID # 253

Mr. Bartunek,
Per your letter of written complaint dated July 31,2018, I've tried to address each of your
concerns. Every request that you have submitted has been addressed but I will attempt to summarize
those responses here.
1. It is the US Marshal's decision to hold you in our facility as a component of your US Federal Case
(Hall County has not brought you here and holds you as a service to the US Marshals).
2. In Jail settings, per Nebraska Jail Standards, if the physical plant design permits, jails are to
consider the separation of pre-trial and convicted inmates. The Hall County facility does not
allow complete separation of pre-trial and convicted inmates at all time, but its classification
program and inmate housing efforts meets the need to separate those inmates charged or
convicted of crimes involving serious physical harm to persons or attempt to do serious physical
harm to persons are separated.
3. The inmate classification level Identified for you - looking at past criminal history, current
charges, inmate behavior records and security decisions - places you in the Pod identified for
inmates of your classification level - and management decisions for time out of your cell provide
the maximum opportunity for this facility to ensure your health, safety and security from the
Inmates of the same classification level in this pod. Yes that is providing 5-6 hours out of cell
each day (not counting time out for meals, recreation and other program opportunities.
4. The Hall County Lights out period (11pm to 5am) provides and meets the Nebraska Jail
Standards for reduced lighting levels to meet inmate sleeping requirements and meeting the
lighting levels appropriate for sleeping opportunities and required facility security and safety
standards.
5. The Hall County heating and ventilation system provides and surpasses the Nebraska Jail
Standards for inmate comfort and temperature control. Per your grievances submitted to Hall
County indicating that temperature conditions were not meeting your needs, facility
maintenance staff responded and measured the temperature conditions at those times. The
Jails HVAC system maintains facility temperatures well within the Nebraska Jail Standards of 6580 degrees. On the date of your first grievance the cell air temperature set for your ceil was at
70.1 degrees. In your cell, the temperature was tested and recorded at 72 degrees. On 6-6-18,
you again submitted a grievance and the Pod dayroom temperature was measured at 75.3
degrees. This rise in temperature was due to an equipment malfunction which resulted in
numerous other inmate grievances of the temperatures being too hot. On 6-8-18 your cell
temperature was 70.1 - again, well above the minimal standards for cell temperatures.
6. You claim you need an eye exam. Our facility does not provide eye exams for inmates, but will
provide reading glasses if needed or any inmate is allowed to contact family or friends for
delivery of any needed prescription glasses/contacts for inmate use. As you are not a Hall
County Inmate, if needing an eye exam - you must contact the US Marshals for approval and
scheduling to do so, as they are responsible for this care.
7. You claim to need a hearing exam. Again, Our facility does not provide hearing exams for
inmates, but inmates are allowed to contact family or friends to access personal hearing aids not

Appendix [16]

v..

29

8.18-CV-00489-RGK-PRSE Doc # 33-4 Filed: 12/30/19 Page 30 of 60 - Page ID # 254

with the Inmate In facility - or to route personal property on the Inmate to family or friends for
repair or replacement. Again, as a US Marshal inmate - you do need to communicate with that
agency for the approval and coordination of those efforts to address the exam needs.
8. You claim to need a Dental exam and teeth cleaning. Our facility addresses all needed inmate
emergency Dental needs but does not provide routine exams or annual cleanings. You must
address your Dental care needs with the US Marshals for approval and coordination of said
actions.
9. You claim to need a Cancer check. You need to address this need via a kite to Medical
identifying the symptoms you are exhibiting and the reasonings why you need a Cancer check.
This too can then be addressed, by you, with a communication to the US Marshals for
confirmation of need, approval and coordination of said diagnostic exams with our Medical
Department, it is their decision to proceed or not to proceed.
10. You claim a need for a Dr. exam of a left shoulder cup, ask for an MRI and surgery to repair
alleged damage. Hall County Corrections meets and addresses all emergency medical needs of
inmates as those emergency needs arise. Again, communicate with Medical, via the electronic
kiosks, describing the chronic symptoms and conditions needing addressed and communicate
with the US Marshals to again acknowledge, approve and coordinate said medical treatment
needs of your shoulder.
11. You claim a need for a weekly visit by a Christian Pastor. This facility schedules and provides
Church/Bible Study services for inmates on a weekly basis that are provided by outside
volunteers. These programs must be signed up for by each inmate wishing to participate on the
dates of the scheduled services/programs. You have the same right and responsibility to sign-up
for and attend when they occur. You also have every right to request and coordinate a Pastoral
visit with the clergy you believe meets your needs. I am not aware that this has ever been
requested by you or Clergy identified to do so.

Respectfully,

Todd Bahensky, Director
Hall County Department of Corrections

30

8:18-cv-00489-RGK-PRSE Doc # 33-2 Filed: 12/30/19 Page 1 of 14 - Page ID # 155
U.S. Department of Justice
United States Marshals Service
Prisoner Operations Division
1. Agreement Number
47-08-0028

.4i-

Detention Services
Intergovernmental Agreement

2. Effective Date

3. Facility Code(s)
7DM

tefi Id-ofb

5. Issuing Federal Agency

* 6. Local Government
Hall County Department of Corrections
110 Public Safety Drive
Grand Island, NE 68801

United States Marshals Service
Prisoner Operations Division
CG-3, Suite 3000
Washington, DC 20530-0001
7. Appropriation Data

Tax ID#:
'• 8. Local Contact Person'
i

'■ Todd Bahenskv, Director
9. Telephone: 308-385-5206
Fax:
it Email: toddb@hallcountyne.gov

15-1020/X

W

'••S

10. This agreement is for the housing, safekeeping,
and subsistence of Federal detainees, in accordance
with content set forth herein.

13a. Optional Guard/Transportation Services tof;
SI Medical Facility

4. DUNS Number
021262600

- ill.
Male: 20

\

□ Other

S

0 U.S. Courthouse

Female: 10

Total:
14.

1(12.
<
U $75.00

II

Guard/Transportation Hourly Rate: $28.78

!

D JPATS
13b. □ Department of Labor Wage Determination
Sign (Local) '

15. Local Government Certification
To the best of my knowledge and belief, information
submitted in support of this agreement is true and
correct. This document has been duty authorized by
the governing authorities of their applying
Department or Agency State or County Government
and therefore agree to comply with all provisions set
forth herein this document.
17.Federal Detainee
Type Authorized

Signature
Todd Bahensky
Print Name
!'

El Adult Male

□ Juvenile Male
□ Juvenile Female
1

i:
i

Date

Signature

E BOP
□ ICE

mm

19. Signature of Person Authorizgto Sign (Federal)

18. Other Authorized
Agency User

El Adult Female

Director
Title

LTiffa ni. Eason..
Print Name
Chief Intergovernmental Agreements
Hi
: Title
1
l
i

Page 1 of 14

Exhibit A to Affidavit of T. Bahensky
Appendix [17]

.. jf.

mL

>ate/

x

i.

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 1 of 32 - Page ID # 544

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
GREGORY P. BARTUNEK,
Plaintiff,

8:18CV489

vs.
HALL COUNTY, NEBRASKA, and
TODD BAHENSKY in his individual and
official capacities,

MEMORANDUM
AND ORDER

Defendants.
PlaintiffGregory Bartunek, who is proceeding pro se, brings this 42 U.S.C. §
1983 action challenging the conditions of his six-month confinement at the Hall
County Department of Corrections, where he was being temporarily held as a federal
pretrial detainee pursuant to an agreement with the United States Department of
Justice.1 Requesting compensatory and punitive damages,2 Plaintiff sues Defendants
Hall County and Todd Bahensky, Director of the Hall County Department of
Corrections, in his official capacity for injury caused by their alleged
unconstitutional policy or custom of depriving inmates of basic services.3 Plaintiff
also sues Bahensky in his individual capacity.

Plaintiff nowresides at a federal correctional institution in Seagoville, Texas.
2 Plaintiffs request for injunctive relief was previously denied as moot
because he no longer resides at the institution that is the subject of his claims. (Filing
12 at CM/ECF p. 11.) See Randolph v. Rodgers, 253 F.3d 342, 345 (8th Cir. 2001)
(when actions required by injunction would be impossible for correctional-center
defendants to execute because plaintiff was moved to another institution, plaintiffs
claims for injunctive relief against defendants were moot).
3 Plaintiffs claim against Defendants Hall County and Bahensky in his
official capacity are actually a single claim against the County and shall be constmed

8:18-cv-00489-RGK-PRSE Doc #38 Filed: 03/24/20 Page 2 of 32 - Page ID # 545

Plaintiff complains that Defendants limited his out-of-cell time to two hours
per day; subjected him to uncomfortably cold conditions; enforced a lights-out
policy that only allowed him to get five to six hours of sleep per night; and failed to
repair his broken glasses or give him an eye exam, fix his hearing aids, administer
routine dental care, give proper medical care for a variety of ailments, and provide
any religious services despite his request. (Filing 14 at CM/ECF p. 2 (summary of
Plaintiffs claims after initial review); Filing 12 at CM/ECF p. 1.)
Defendants move for summary judgment (Filing 32) on the merits as to Hall
County andBahensky in his official capacity and argue that Bahensky is entitled to
qualified immunity as to Plaintiffs claims against him individually. For the reasons
discussed below, I shall grant the Defendants’ Motion for Summary Judgment.
I. UNDISPUTED MATERIAL FACTS4
1.
At all pertinent times, Hall County has maintained a written agreement
with the United States Department of Justice, under which it may temporarily house
as such. Elder-Keep v. Aksamit, 460 F.3d 979, 986 (8th Cir. 2006) (“A suit against
a public official in his official capacity is actually a suit against the entity for which
the official is an agent.”).
4 Plaintiff objects to Defendants’ Statement of Undisputed Material Facts “in
it[]s entirety.” (Filing 34 at CM/ECF p. 2.) However, I shall only consider proper
objections that include “pinpoint references to affidavits, pleadings, discovery
responses, deposition testimony (by page and line), or other materials upon which
the opposing party relies,” as required by NECivR 56.1(b)(1), and that do not
constitute legal conclusions or unsupported allegations. See Bedford v. Doe, 880
F.3d993,997 (8th Cir. 2018) (in responding to motion for summary judgment, “The
nonmoving party must do more than raise some metaphysical doubt about the
material facts, and cannot rest on mere denials or allegations. The nonmoving party
must instead present enough evidence that a jury could reasonably find in his favor.”
(internal citations omitted)); Conollyv. Clark, 457 F.3d 872, 876 (8th Cir. 2006)
(unsupported self-serving affidavit attempting to establish contractual terms not
sufficient to defeat motion for summary judgment; “a properly supported motion for
summary judgment is not defeated by self-serving affidavits”); Davidson & Assocs.
2

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 3 of 32 - Page ID # 546

federal pretrial detainees and inmates at the request of the federal government.
(Filing 33-1, Aff. Bahensky f 5 & Ex. A.)
PlaintiffGregory Bartunek was arrested by the United States Marshals
Service in February 2017 and was charged by the United States Department of
Justice with federal criminal charges related to possession, receipt, or distribution of
child pornography. (Filing 33-1, Aff. Bahensky^f 9 & Ex. C.)
2.

On or about April 25,2018, federal law enforcement authorities elected
to transfer PlaintiffBartunek, then a pretrial detainee, to the Hall County Department
of Corrections (“HCDC”), where he was at all times classified to be housed in the
maximum-security unit dueto the nature of his charges. (Filing 33-4 at CM/ECFpp.
1-3, 7, 11, 18, 23, 29-32, 39-41, 51; Filing33-5 at CM/ECFp. 100 (Hall County’s
response to Plaintiffs complaint about his classification: “Your classification has
not changed since your arrival. You are housed where you are for your own
protection due to the nature of your current charges.”); Filing 33-8 at CM/ECF p. 1
(“D Pod consists of inmates classified as MAXIMUM security and includes
populations of accused child molesters, inmates with violent tendencies or charges,
those requiring separation from other inmate populations including gang ties,
behavioral separation and others.”).)5
3.

v. Jung, 422 F.3d 630, 638 (8th Cir. 2005) (to defeat a motion for summary
judgment, “[a] plaintiff may not merely point to unsupported self-serving
allegations, but must substantiate allegations with sufficient probative evidence that
would permit a finding in the plaintiffs favor”). Defendants’ Undisputed Material
Facts that are not properly controverted shall be considered admitted NECivR
56.1(b)(1). I shall comment on the merits of Plaintiffs noteworthy objections in
future footnotes.
5 Plaintiff asserts, without argument or rationale, that he should have been
classified at two levels below his “Med 3” classification. He offers no evidence in
support ofhis claim. (Filing 34 at CM/ECF p. 2.)
3

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 4 of 32 - Page ID # 547

4.

Hall County contracts with a private company, Advanced Correctional
Health Care (“ACH”), to provide medical professionals who are responsible for
addressing the medical needs of those incarcerated in the HCDC population. (Filing
33-1, Aff. Bah ensky^|4.)6
5.
Plaintiffwas housed at the HCDC from April 25,2018, to October 23,
2018. (Filing 33-1 at CM/ECF p. 3.) On December 6, 2018—shortly after Plaintiff
left the HCDC—the HCDC was determined to be in full compliance with the
Nebraska Minimum Jail Standards by a Jail Standards Field Representative for the
Nebraska Commission on Law Enforcement and Criminal Justice after an annual
inspection required by Neb. Rev. Stat. § 83-4,131 (Westlaw 2020). (Filing 33-7.)
The State of Nebraska Minimum Jail Standards for Adult Jail Facilities are set forth
in Title 81, Chapters 1-15 of the Nebraska Administrative Code, andmay be found
at https://ncc.nebraska.gov/docurnents-0. (Filing 33-1, Aff. Bahensky 12,14.)7
6.
State minimum jail standards for adult jail facilities include the
following pertinent provisions:
• Title 81, Chapter 15, section 006.04, governing “Heating and
Cooling Systems,”provides that the living environmental “newly constructed
and renovated jail facilities” shall have “temperatures maintained between
sixty-five (65) and eighty (80) degrees Fahrenheit.”

6 Plaintiffs objection to the quality of ACH’s care does not controvert this
particular Undisputed Material Fact. (Filing 34 at CM/ECF p. 2.)
7 Plaintiffs argument (Filing 34 at CM/ECF p. 3) that the complaints and
grievances he filed during his stay at the HCDC prove that the facility did not comply
with applicable jail standards does not properly controvert the Defendants’ proof
that the HCDC was deemed to be compliant with relevant jail standards after an
annual inspection on December 6,2018.
4

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 5 of 32 - Page ID # 548

• Title 81, Chapter 7, section 003.01, provides that inmates “shall have
opportunities for active physical.exercise at least one (1) hour per day, five
days per week outside their cells.”
• Title 81, Chapter 12, section 003, provides that the facility
administrator “shall, to the best of his ability, insure the right of inmates to
practice and express their religious beliefs.” However, this section does not
require any particular type or frequency of access to religious events.
• Title 81, Chapter 10, sections 001 and 002, provide that: “It is the
policy of the State of Nebraska that all jail facilities shall provide all inmates
with a healthful environment and access to adequate medical care”; that only
a medical authority can diagnose any illness or injury, give treatment, or
prescribe medication, except in emergencies; and that the facility
administrator “shall make provisions for the daily collection and review of
inmate medical complaints and to insure that each inmate is observed on a
regular basis” and “to the best of his ability, insure that the proper medical
attention is provided as soon as possible” when there are “indications of illness
or injury.”
• Title 81, Chapter 10, section 002.07, provides that: “Any inmate
known to be seriously ill or injured shall be examined by a medical authority,
delivered to an emergency center, or the proper judicial authority shall be
forthwith requested to release the inmate.”
Inmates and detainees of the HCDC have access to an electronic kiosk
system where they are able to submit requests and grievances (except when special
circumstances may require the use of paper forms), which Plaintiff accessed and
utilized on many occasions throughout his stay at the HCDC.8 (Filing 33-1, Aff.
7.

8Plaintiff s frequent complaints, requests, and commentary submitted through
the kiosk system included, “why do you allow illegal immigrants [to] control tv?’
5

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 6 of 32 - Page ID # 549

Bahensky^[6; Filing 33-3 at CM/ECFpp. 13,34-35; Filing 33-5 at CM/ECFpp. 1117.)
During the six months he was housed there, Plaintiff submitted the
following requests to HCDC staff or ACH medical personnel pertaining to the
temperature in the jail. (Filing 33-1, Aff. Bahensky 9-11; Filings 33-4,33-5,336.)
8.

• On April 26,2018—one day after Plaintiff"was moved to the HCDC
and was fully examined by a medical practitioner—Plaintiff complained to
medical staff that he was “cold all the time” and was “cold even with a
blanket.” (Filing 33-6 at CM/ECF pp. 3-4.)
• On April 28,2018, Plaintiff submitted a complaint to staff, stating, “I
am cold all the time. I have a subnormal body temp and can’t keep warm day
or night. I asked med but they said they could not help. I have thermals
Douglas County sold me in my property. Can you help me to stay warm?,”
and staff responded two days later, “Denied.” (Filing 33-4 at CM/ECF p. 60
(spacing corrected).)
• On May 11,2018, Plaintiff submitted a request to “Medical,” stating,
“I can’t get warm. Hands and feet freezing. Didn’t start till I was transferred
here. Ined [sic] doctor. Now I have cold. Cold at night too. No one else seems
to be affcted [sic]. Let me know when I can receive treatment Thanks.”

(Filing 33-5 at CM/ECF p. 12); “i have hiccups almost all the time” (Filing 33-5 at
CM/ECF p. 18); “test of system” (Filing 33-5 at CM/ECF pp. 70, 71); “razors very
poor” (Filing 33-5 at CM/ECF p. 104); “kioskbad” (Filing 33-5 at CM/ECFp. 106);
“why do some COs get mad when I ask a question?” (Filing 33-5 at CM/ECF p. 15);
and “we need more time to get ready for library and rec. co’s announce it and run
out door, i suggest waiting till 15 after or check list or both” (Filing 33 -5 at CM/ECF
p. 102).
6

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 7 of 32 - Page ID # 550

(Filing 33-4 at CM/ECF p. 59.) Plaintiffs jail medical chart indicates that he
was examined on May 12, 2018, by a nurse who noted “visible purple veins
mid lower leg to feet” and “tips of fingers cold pedal pulsespresent.” No new
orders were given, but the nurse educated Plaintiff to wear socks, increase his
water intake, and exercise. (Filing 33-6 at CM/ECF p. 5.)
• On June 4,2018, Plaintiff submitted a grievance stating, “According
to the handbook I have right to proper clothing and medical treatment. This
right is bein [sic] violated because I am cold all the time. I did not have this
problem until I came here. Please do what it takes to fix this.” The next day
HCDC staff replied, “ Y ou have the same clothing as everyone else. What kind
of medical treatment are you not getting? The temperature is 72 degrees in the
dayroom and sleeping area.” (Filing 33-4 at CM/ECF p. 57.)
• On June 6, 2018, Plaintiff submitted a grievance appeal stating,
“Telling me what you believe the temperature is does not address the problem.
I am still cold and in needless pain and suffering. Proper clothing is a simple
and reasonable solution. I suggest my thermals I got in property from Douglas.
This is in RE to No. 161984. Thanks.” The next day HCDC staff replied, “We
have a computer that tells us what the temperature is in the dayroom and in
the cells. In fact right now the temperature in the cells are 75.3 which is down
from 78.2. As far as extra clothing we do not allow it.” (Filing 33-4 at
CM/ECF p. 58.)
• Plaintiff submitted a handwritten letter to Director Bahensky dated
July 31, 2018, accusing the HCDC of violating his constitutional rights by
“not allowing me the proper clothing to keep warm,” which constituted
“punishment that qualifies as abuse of the elderly.” (Filing 33-4 at CM/ECF
p. 27.) Director Bahensky replied in writing to Plaintiffand explained that the
temperature of the facility, as measured after each of Plaintiff s complaints,
had been verified to be within the requirements of Nebraska Jail Standards,
7

8:18-cv-00489-RGK-PRSE Doc #38 Filed: 03/24/20 Page 8 of 32 - Page ID # 551

and that other inmates had complained in the same time period that it was too
hot, rather than too cold. (Filing 33-4 at CM/ECF p. 29.)
• On October 10,2018, at 8:38 p.m., Plaintiff submitted a complaint to
staff stating, “I’m cold,” and an HCDC staff member replied, “Maintenance
will turn the heat up.” (Filing 33-5 at CM/ECF p. 3.) Approximately two
minutes later on same day, October 10,2018, at 8:40 p.m., Plaintiff submitted
a request directed to “medical” stating, “I’m still very cold.” (Filing 33-6 at
CM/ECF p. 25.) Plaintiff s jail medical chart shows that he was examined by
a nurse on October 11, 2018. While no new medical orders were given,
Plaintiff s request for an extra blanket was approved, and he was educated to
“drink plenty of water.” (Filing 33-5 at CM/ECF p. 2.) Applicable jail
standards require all bedding, presumably including blankets, to “remain on
the bunk.” (Filing 33-3 at CM/ECF p. 14.)
• On October 15,2018, Plaintiff submitted a “complaint” stating, “me
and the boys are cold in the day room, can you crank up the heat to 76? thank
you kindly.” Two days later an HCDC staff member replied, “I will let
maintenance know.” (Filing 33-5 at CM/ECF p. 1.)
On August 24, 2018, a fight broke out amongst the “most violent and
9.
highest classified inmate population,” who were held in Plaintiffs housing area,
necessitating a lockdown that limited the amount of time inmates were allowed out
of their cells. The lockdown was deemed necessary to ensure inmate safety,
especially in light of “the multitude of verbal and written threats.” (Filing 334 at
CM/ECF p. 23.) During the six months Plaintiff was detained at the HCDC, he
submitted the following requests to HCDC staff or ACH medical personnel
pertaining to the amount of time he received outside of his cell.
• On August 30, 2018, Plaintiff submitted a complaint that stated,
“when will the tornado warning be over, so we can get more time out? i
8

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 9 of 32 - Page ID # 552

believe the tornado has left a long time ago. thanks,” to which HCDC staff
replied the next day, “Taken care of.” (Filing33-5 at CM/ECF p. 65.)
• On August 31,2018, Plaintiff submitted a complaint that stated, “do
you know when the 22 hour lockdown will be over? can i be moved to another
block with more time out?,” to which HCDC staff replied on September 4,
2018, “At this time I don’t know. As far as I know no one is moving.” (Filing
33-5 at CM/ECF p. 66.)
• On September 1,2018, Plaintiff submitted a grievance stating, “page
24 of inmate manual says we get out every other hour, unless facility needs
change, what is the need to change to once every 4 hours? page 5 says we
have right to know, thanks, and what need to keep it that way for over a
week?” Plaintiff s grievance was “closed” two days later without receiving a
response from the HCDC.9 (Filing 33-5 at CM/ECF p. 69.)
• On September 8, 2018, Plain tiff submitted a handwritten grievance
appeal complaining that “keeping inmates of cell Block D locked down for 22
hours/day for over 2 weeks is a violation of R4 of the Inmate Manual,”
asserting that the lockdown was a “fear-based overreaction” to a
“disturbance” on August 24, 2018, and suggesting that the HCDC “talk to”
Douglas County “to see how it is done.” (Filing 33-4 at CM/ECF p. 22.) The
Assistant Director of the HCDC replied in writing to Plaintiffs grievance
appeal, explaining that the lockdown “in the most violent and highest
classified inmate population” was necessary to ensure inmate safety and
security after a fight broke out in Plaintiff s unit on August 24, 2018. The
Assistant Director stated that the lockdown was necessary to “address the
multitude of verbal and written threats” and reminded Plaintiff that there

9 Plaintiff claims in his brief, without supporting evidence, that his grievance
was closed due to “a malfunction of the Kiosk system.” (Filing 34, Pl.’s Br. at
CM/ECF p. 6.)
9

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 10 of 32 - Page ID # 553

continued to be access to all programming, and good behavior would be
considered in upcoming classification reviews. (Filing 33-4 at CM/ECF p.
23.)
• On September 26,2018, Plaintiff submitted a grievance stating, “This
22 hour lockdown is causing me severemental andphysical anguish andpain
and suffering,” to which the HCDC Assistant Director on September 28,2018,
advised Plaintiffto contact Mental Health, “as they are available for just this
type of challenge and can provide you insights on addressing these feelings
and experiences.” (Filing 33-5 at CM/ECF p. 96.) The same day, Plaintiff
submitted a request to “Mental Health” stating, “lockdown is very determental
[sic],” to which an ACH nurse replied the next morning, “I cannot imagine. Is
there something you are requesting from mental health? We can offer
counseling services but we cannot lift the lockdown, unfortunately. Please let
me know if you wish to be seen.” (Filing 33-5 at CM/ECF p. 97.) Plaintiffs
ACH medical chart shows that Plaintiff was examined by a nurse at sick call
on September 27,2018, but the only complaint he advanced at that time was
a sore back, left shoulder pain, and his prediction that the rotator cuff in his
left shoulder was tom. Plaintiff didnot mention any mental-health complaints.
(Filing 33-6 at CM/ECFp. 23.)
• Plaintiff submitted a handwritten letter to Director Bahensky dated
October 3, 2018, which he characterized as a “petition” signed by other
inmates in support of his request to be allowed out of his cell into the dayroom
at the same time as certain other groups housed in his unit. (Filing 33-4 at
CM/ECF pp. 52-53.) On October 12, 2018, Director Bahensky explained in
writing why Plaintiffs request to be allowed out of his cell with certain other
inmates could not be honored, including the facts that Plaintiff s “unit has had
a number of behavioral problems including fighting and numerous inmates
that need to [be] kept separate from one another,” and granting Plaintiffs
request would cause others to make the same request which, if granted, would
create an “unmanageable situation and increase the risk that inmates would
10

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 11 of 32 - Page ID # 554

inadvertently be allowed out with inmates with whom they have conflicts.”
Bahensky stated that Plaintiffs classification status, which was reviewed
routinely per jail standards, “does not allow for us to house you in a less
restrictive unit.” (Filing 33-4 at CM/ECF p. 51.)
• Plaintiff claims he neverreceived copies of his classification reviews,
so he was denied the right to appeal therefrom. (Filing 34, PI. ’s Br. at CM/ECF
p. 5.) However, the HCDC Inmate/Detainee Handbook in effect at the time of
Plaintiffs detention only allowed appeals to be taken from “Classification
reviews which result in a change in classification status.” (Filing 33-3 at
CM/ECF p. 8.) Plaintiffs classification status did not change duringhis time
at the HCDC due to his criminal history and the nature of the charges against
him (child pornography). (Filing 33-4 at CM/ECF pp. 1-3, 7, 11, 18, 23, 2932, 39-41, 51; Filing 33-5 at CM/ECF p. 100 (“Your classification has not
changed since your arrival. You are housed where you are for your own
protection due to the nature of your current charges.”); Filing 33 -8 at CM/ECF
p. 1 (“D Pod consists of inmates classified as MAXIMUM security and
includes populations of accused child molesters, inmates with violent
tendencies or charges, those requiring separation from other inmate
populations including gang ties, behavioral separation and others.”).)
10. During the six months he was housed there, Plaintiff submitted the
following requests to HCDC staff pertaining to his right to exercise his religion.
(Filing 33-1, Aff. Bahensky 9-10.)
• On July 2,2018, Plaintiff submitted a grievance stating, “i sign up for
church [ejvery week but it is never held. At Douglas we always had it. what
can you do to help?” The Assistant Director replied that he had verified that
religious services had been held several times since Plaintiffs arrival, but
Plaintiff had chosen not to attend, although acknowledging that at times the
volunteer leaders cancelled services, as had been the case on the day prior to
his grievance. (Filing 33-5 at CM/ECF p. 11.) On July 3, 2018, Plaintiff
11

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 12 of 32 - Page ID # 555

submitted a handwritten appeal of his grievance disagreeing with the Assistant
Director’s response, to which HCDC staff responded by noting that he needed
to use the electronic kiosk to process his grievance. (Filing 33-4 at CM/ECF
p. 34.)
• Assistant Director Gottschalk recognized for the first time when
reviewing the above grievance and grievance appeal in connection with this
litigation that he had mistakenly confused Plaintiff for another inmate in the
maximum-security unit when he investigated and responded to Plaintiff’s
original grievance; however, his investigation revealed that religious
programs were offered to the maximum-security unit whenever a religious
provider could be located and would appear for maximum-security inmates.
(Filing 33-11, Aff. Gottschalk^4-7.)
• In his letter to Director Bahensky dated July 31, 2018, Plaintiff
mentioned that he was “in need of a weekly visit by a Christen [sic] Pastor. I
sign up for Church service weekly, have never refused going, was available,
but never have seen a pastor since I arrived on April 25, 2018.” (Filing 33-4
at CM/ECF p. 27.) Director Bah ensky explained by letter to Plaintiff that the
HCDC schedules and provides church/bible study services for inmates
dependent upon participation of outside volunteers, and that Plaintiff was free
to request and coordinate a pastoral visit with the clergy he believed would
meet his needs, but that he was not aware of any such special requests having
been made by Plaintiff. (Filing 33-4 at CM/ECF p. 30.)
11. Director Bahensky instructs personnel at the HCDC to make efforts to
schedule weekly religious programs for the inmates, but it is difficult to locate and
find religious program leaders to consistently present to the particular classification
unit where Plaintiff was housed (maximum security, including sex offenders and
those accused of crimes of violence or against children). (Filing 33-11, Aff.
Gottschalk^ 7; Filing 33-1, Aff. Bahensky ^ 13.)
12

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 13 of 32 - Page ID # 556

12. When Plaintiff arrived at the HCDC on April 25, 2018, the U.S.
Department of Justice provided a summary of his medical history and status and a
transferof his medications. Plaintiff s booking assessment did not denote any back
or shoulder injuries. (Filing 33-1, Aff. Bahensky f 11; Filing 33-6 at CM/ECF pp.
1-2.)10
13. During the six months he was housed there, Plaintiff submitted many
other requests to the HCDC pertaining to alleged medical ailments or issues other
than those already outlined above, including the following.
• On May 1, 2018, Plaintiff submitted a request to “Medical” stating,
“Need to contact VA to get my hearing aid fixed.” (Filing 33-6 at CM/ECF p.
7.) Plaintiff’s jail medical chart indicates he was seen by a medical
professional on May 2, 2018, and a narrative note was generated indicating
that the nurse accepted Plaintiffs report that his right hearing aid no longer
worked, and the nurse took both hearing aids to check on supply. (Filing 336 at CM/ECF p. 6.)
• On June 7 and 14, 2018, Plaintiff submitted requests to “Medical”
inquiring about his hearing aids, to which an ACH nurse replied, “we have
them,” and “have family contact VA.” (Filing 33-6 at CM/ECF pp. 9,12-13.)
10 After representing during discovery that he did not have any medical
records supporting his claimed medical conditions (Filing 33-10 at CM/ECF pp. 24), Plaintiff has now filed what he claims are medical records from the Douglas
County Department of Corrections showing that he had previously sought medical
treatment for back and shoulder issues. Although not explicitly stated, Plaintiff
seems to imply that the Defendants should have procured his past medical records.
(Filing 34 at CM/ECF p. 7; Filing 35 at CM/ECF pp. 7-28.) Plaintiff has not
submitted evidence that he authorized the release of such medical information to the
HCDC. See, e.g., Scher v. Ortwerth, No. 4:03-CV-787,2004 WL 3622037, at *15
(E.D. Mo. July 12, 2004) (noting prisoner’s revocation of prior authorization for
release of medical information to jail).
13

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 14 of 32 - Page ID # 557

• On July 11,2018, Plaintiffsubmitted a written grievance form asking
for his hearing aids and glasses to be fixed or replaced, teeth cleaning, a cancer
test, “Fix left rotator cup,” “take me to VA for hearing aid and surgery,” and
“Give me 8 hours of uninterrupted sleep with very low light levels.” (Filing
33-4 at CM/ECF p. 33.) The Assistant Director responded in writing
indicating that routine, non-emergency preventative dental exams are not
provided; Plaintiff could release his glasses and hearing aids to friends or
family to be repaired; Plaintiff could be seen by the contracted medical
providers upon request to address his alleged shoulder issue; and “our facility
light levels already comply with State Jail Standards.” (Filing 33-4 at
CM/ECFp. 33.)
• On July 14, 2018, Plaintiff submitted a grievance appeal stating that
he expected the facility to get him “hearing, vision, dental, and surgery
treatments, and 8 hours of uninterrupted sleep a night.” The Assistant Director
responded that the guidelines had been explained and his medical needs were
being addressed. (Filing 33-5 at CM/ECF p. 21.)
• In a letter to Director Bahensky dated July 31, 2018, Plaintiff stated
that his inability to get “8 hours of uninterrupted sleep per night in dark
conditions” “results in shorter lifetimes and possibly increased alzheimers
disease,” and indicatedhis need for an “Eye exam and new glasses,” “Hearing
exam and repaired hearing aids,” dental exam, teeth cleaning, cancer check,
and “Dr. Exam of left shoulder cap and MRI and surgery to repair it.” (Filing
33-4 at CM/ECF p. 27.) Director Bahensky responded by letter to each of
Plaintiffs medical requests, explaining that the “lights out” rules complied
with Nebraska Jail Standards and permitted sufficient hours for sleep; the
facility could provide reading glasses but not routine eye, hearing, or dental
exams unless afforded by the U.S. Marshal11; Plaintiff was welcome to contact
11 Plaintiffs “objections” to this Material Fact and others—in the form of
explaining the physical state of his glasses and hearing aids, how his hearing aids
14

8:18-cv-00489-RGK-PRSE Doc #38 Filed: 03/24/20 Page 15 of 32 - Page ID # 558

friends or family about repairing or replacing his hearing aids and needed to
contact the U.S. Marshal for examination needs; and Plaintiff should contact
Medical using the kiosk to be seen by a medical professional about any
symptoms he might be experiencing that would warrant a cancer check or
treatment for a shoulder injury. (Filing 33-4 at CM/ECF pp. 29-30.)
• On August 4, 2018, Plaintiff submitted a request to “Medical”
seeking “hearing batteries #312 and bandaid,” which was responded to by an
ACH nurse stating, “Given by noc shift.” (Filing 33-5 at CM/ECF p. 37.)
• On August 10, 2018, Plaintiff submitted two separate requests to
“Medical,” stating, “I need my hearing aids fixed. They don’t work right
because right one is broken, contact VA or marshal for help,” and “i can’t
sleep and need medical help.” (Filing 33-5 at CM/ECF pp. 44-45.) Plaintiff’s
jail medical chart indicates he was seen by a medical professional on August
11, 2018, and it was noted that Plaintiff did not bring his hearing aids to the
visit, but he was able to hear the nurse when she used a normal voice tone,
and no new medical orders were given. (Filing 33-6 at CM/ECF p. 14.)
• On September 19, 2018, Plaintiff submitted a request to “Medical”
stating, “my back hurts bad. can’t walk to medical.” (Filing 33-6 at CM/ECF
p. 22.) Plaintiff s jail medical chart shows that he was examined by an ACH
medical professional on September 20,2018, and was educated to do stretches
for his back pain, but no new medical orders were given. (Filing 33-6 at
CM/ECF p. 21.)
• On September 26, 2018, Plaintiff submitted a request to “Medical”
stating, “shoulder, hiccup, back pains aggravated.” (Filing 33-5 at CM/ECF

were damaged, and how other correctional institutions handled his eye, ear, and
other medical needs (Filing 34 at CM/ECF pp. 8-11)—do not controvert the contents
of Plaintiff’s complaints about these issues andtheHCDC’s responses thereto.
15

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 16 of 32 - Page ID # 559

p. 98.) Plaintiff s jail medical chart shows that he was examined by a medical
professional on September 27,2018, abouthis shoulder and back complaints.
The chart notes that Plaintiff had a steady gait, was able to complete stretches
and bend to his toes, and was given no new medical orders, but was educated
to do stretching exercises and increase his water-intake and activity levels.
(Filing 33-6 at CM/ECF p. 23.)
14. On or about October 23, 2018, the U.S. Department of Justice
transferred Plaintiff out of the HCDC to a different holding facility. (Filing 33-4 at
CM/ECF pp. 35-37.)
15. Law enforcement agencies will generally not accept custody of an
inmate who appears or claims to be in medical distress without first seeking medical
clearance, but the federal authorities who took Plaintiff into their custody for transfer
on October 23, 2018, did so without raising any concerns about his medical status.
(Filing 33-1, Aff. Bahensky^f 16.)
II. STANDARD OF REVIEW
“The court shall grant summaryjudgmentif the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “The movant bears the initial responsibility of
informing the district court of the basis for the motion, and must identify those
portions of [the record].. . which it believes demonstrate the absence of a genuine
issue of material fact.” Torgersonv. City ofRochester, 643 F.3dl031,1042 (8th Cir.
2011) (en banc) (internal quotation marks and citation omitted). “If the movant does
so, the nonmovant must respond by submitting evidentiary materials that set out
specific facts showing that there is a genuine issue for trial.” Id. (internal quotation
marks and citation omitted).
“On a motion for summary judgment, facts must be viewed in the light most
favorable to the nonmoving party only if there is a genuine dispute as to those facts.
16

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 17 of 32 - Page ID # 560

Credibility determinations, the weighing of the evidence, and the drawing of
legitimate inferences from the facts are jury functions, not those of a judge.” Id.
(internal quotation marks and citations omitted). But “[t]he nonmovant must do more
than simply show that there is some metaphysical doubt as to the material facts, and
must come forward with specific facts showing that there is a genuine issue for trial.”
Id. (internal quotation marks and citations omitted).
“The mere existence of a scintilla of evidence in support of the [nonmovant’s]
position will be insufficient; there must be evidence on which the jury could
reasonably find for the [nonmovant].” Barber v. Cl Truck Driver Training, LLC,
656 F. 3d 782,791 -92 (8th Cir. 2011) (internal quotation marks and citation omitted).
“Where therecord taken as a whole could not lead a rational trier of fact to find for
the nonmoving party, there is no genuine issue for trial.” Torgerson, 643 F.3d at
1042 (internal quotation marks and citation omitted).
III. DISCUSSION
A. Claims Against Defendant Bahensky Individually
Bahensky asserts that he is entitled to summary judgment because he is
immune from suit in his individual capacity under the doctrine of qualified
immunity. “Qualified immunity shields government officials from liability for civil
damages and the burdens of litigation ‘insofar as their conduct does not violate
clearly established statutory or constitutional rights of which a reasonable person
would have known.”’ McKenneyv. Harrison, 635 F.3d 354, 358 (8th Cir. 2011)
(quotingHarlow v. Fitzgerald, 457 U.S. 800, 818 (1982)). “Stated another way,
qualified immunity shields a defendant from suit if he or she could have reasonably
believed his or her conduct to be lawful in light of clearly established law and the
information that the defendant possessed.” Smithsonv. Aldrich, 235F.3d 1058,1061
(8th Cir. 2000) (internal quotation and citation omitted). “The qualified immunity
standardgives ample room for mistaken judgments by protecting all but the plainly
incompetent or those who knowingly violate the law.” Id.
17

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 18 of 32 - Page ID # 561

Qualified immunity requires a two-part inquiry: (1) whether the facts shown
by the plaintiff make out a violation of a constitutional or statutory right, and (2)
whether that right was clearly established at the time of the defendant’s alleged
misconduct. Nance v. Sammis, 586 F.3d 604,609 (8th Cir. 2009). If no reasonable
fact-finder could answer yes to both of these questions, the official is entitled to
qualified immunity. Id. “Courts may exercise their discretion in deciding which of
the two prongs of the qualified immunity analysis should be addressed first.” Akins
v. Epperly, 588 F.3d 1178,1183 (8th Cir. 2009).
1. Violation of a Constitutional Right
For qualified immunity purposes, the first question is whether Plaintiff has
established a violation of his constitutional rights. I shall examine each aspect of
Plaintiff s Fourteenth Amendment claim separately.
a. Conditions of Confinement
Because Plaintiffwas a federal pretrial detainee at the HCDC at the time the
Defendants allegedly violated his constitutional rights, the court analyzes Plaintiffs
conditions-of-confinement claims under the Fourteenth Amendment instead of the
Eighth Amendment, which applies to convicted prisoners. Morris v. Zefferi, 601
F.3d 805, 809 (8th Cir. 2010) (analyzing whether manner of transporting pretrial
detainee to courthouse constituted punishment). “Under the Fourteenth Amendment,
a pretrial detainee’s constitutional rights are violated if the detainee’s conditions of
confinement amount to punishment,” id., which includes “penalties that transgress
today’s broad and idealistic concepts of dignity, civilized standards, humanity, and
decency” and “that deprive[] inmates of the minimal civilized measures of life’s
necessities.” Id. (internal quotation marks and citations omitted).
In evaluating “whether the conditions of pretrial detention are
unconstitutionally punitive, [the court must] review the totality of the circumstances
18

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 19 of 32 - Page ID # 562

of a pretrial detainee’s confinement,” including “whether an official’s conduct was
reasonably related to a legitimate governmental interest.” Id. at 810. Specifically,
[a] court must decide whether the disability is imposed for
the purpose of punishment or whether it is but an incident
of some other legitimate governmental purpose. Absent a
showing of an expressed intent to punish on the part of
detention facility officials, that determination generally
will turn on whether an alternative purpose to which [the
restriction] may rationally be connected is assignable for
it, and whether it appears excessive in relation to the
alternative purpose assigned [to it]. Thus, if a particular
condition or restriction of pretrial detention is reasonably
related to a legitimate governmental objective, it does not,
without more, amount to punishment. Conversely, if a
restriction or condition is not reasonably related to a
legitimate goal—if it is arbitrary or purposeless—a court
permissibly may infer that the purpose of the
governmental action is punishment that may not
constitutionally be inflicted upon detainees qua detainees.
Id. (quoting Bell v. Wolfish, 441 U.S. 520, 538-39 (1979) (internal quotations and
citations omitted)).
Further, in analyzing a pretrial detainee’s conditions-of-confinement claims,
the court is to apply “the same deliberate indifference standard as is applied to Eighth
Amendment claims made by convicted inmates.” Id. at 809 (internal quotation marks
and citation omitted). The Eighth Amendment’s prohibition against “cruel and
unusual punishments” requires that prison officials provide humane conditions of
confinement “The Constitution does not mandate comfortable prisons, but neither
does it permit inhumane ones . . . .” Farmer v. Brennan, 511 U.S. 825, 832 (1994)
(internal quotation marks and citation omitted). “The Eighth Amendment prohibits
punishments that deprive inmates of the minimal civilized measure of life’s
necessities,” Smith v. Copeland, 87 F.3d 265,268 (8th Cir. 1996), such as “adequate
food, clothing, shelter, and medical care, and... reasonable measures to guarantee
19

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 20 of 32 - Page ID # 563

the safety of the inmates.” Farmer, 511 U. S. at 832 (internal quotations and citations
omitted).
To prevail on a conditions-of-confmement claim, an inmate must show (1)
that the alleged deprivation of rights was sufficiently serious; and (2) that prison
officials acted with “deliberate indifference” toward conditions at the prison that
created a substantial risk of serious harm to the inmate. Farmer, 511 U.S. at 834;
Irving v. Dormire, 519 F.3d 441, 446 (8th Cir. 2008). “It is obduracy and
wantonness, not inadvertence or error in good faith, that characterize the conduct
prohibited by the Cruel and Unusual Punishments Clause [of the Eighth
Amendment], whether that conduct occurs in connection with establishing
conditions of confinement, supplying medical needs, or restoring official control
over a tumultuous cellblock.” Whitley v. Albers, 475 U.S. 312,319 (1986); see also
Butler v. Fletcher, 465 F.3d 340, 345 (8th Cir. 2006) (“we hold that deliberate
indifference is the appropriate standard of culpability for all claims that prison
officials failed to provide pretrial detainees with adequate food, clothing, shelter,
medical care, and reasonable safety”).
i. Time Out of Cell Limited to Two Hours
Plaintiff argues that restricting him, a pretrial detainee, to his cell for 22 hours
a day after the inmate fight that occurred in his housing unit was unconstitutional
“punishment.”12 As stated above, whether such a cell restriction on a pretrial
detainee amounts to unconstitutional “punishment” requires the court to decide
whether the restriction is imposed for the purpose of punishment or, instead, is
rationally related to a legitimate nonpunitive governmental purpose and is not
excessive in relation to that purpose. Bell, 441 U.S. at 538, 561. See also Martinez
v. Turner, 977 F.2d 421,423 (8th Cir. 1992) (pretrial detainees may not be punished,

12 «

[T]he Due Process Clause prohibits any punishment of a pretrial detainee,
be that punishment cruel-and-unusual or not.” Edwards v. Byrd, 750 F.3d 728, 732
(8th Cir. 2014).
20

8:18-cv-00489-RGK-PRSE Doc #38 Filed: 03/24/20 Page 21 of 32 - Page ID # 564

and whether particular restriction or condition accompanying pretrial detention is
punishment turns on whether restriction or condition is reasonably related to
legitimate governmental objective).
Prison administrators... should be accorded wide-ranging
deference in the adoption and execution of policies and
practices that in their judgment are needed to preserve
internal order and discipline and to maintain institutional
security. That deference extends to a prison security
measure taken in response to an actual confrontation with
riotous inmates, just as it does to prophylactic or
preventive measures intended to reduce the incidence of
these or any other breaches of prison discipline.
Whitley, 475 U.S. at 321-22 (internal quotation marks and citation omitted). How
best to preserve order and discipline is “peculiarly within the province and
professional expertise of corrections officials, and, in the absence of substantial
evidence in the record to indicate that the officials have exaggerated their response
to these considerations, courts should ordinarily defer to their expert judgment in
such matters.” Bell, 441 U.S. at 548 (internal quotation marks and citation omitted);
see also Holden v. Hirner, 663 F.3d 336,341-42 (8th Cir. 2011) (“Courtsmust give
substantial deference to prison officials to determine the best methods for dealing
with dangerous inmates in the volatile environment that is prison life.” (internal
quotation marks and citation omitted)).
Here, the evidence shows that Plaintiff was housed in a highly restrictive area
of the jail for his own protection due to the nature of his criminal charges. Plaintiff
acknowledges in his Complaint, and the evidence establishes, that a large
disturbance in his housing unit in late August 2018 led to a lockdown that restricted
prisoners’ time out of their cells to two hours per day on a rotating schedule, with
programming still available, for the two remaining months Plaintiff was housed at
the facility before being transferred to another institution. There is further evidence
that the HCDC Assistant Director found the lockdown necessary to “address the
multitude of verbal and written threats.” (Filing 33-4 at CM/ECF p. 23.)
21

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 22 of 32 - Page ID # 565

Subjecting Plaintiff and his fellow inmates to such a lockdown in their
restrictive housing unit was rationally related and proportionate to the legitimate
nonpunitive governmental purposes of protecting the inmates in Plaintiff’s housing
unit from each other and maintaining order until the threat of continued unrest
subsided. In the absence of any evidence that the cell restriction was imposed for the
very purpose of punishment—and there is none here—the court must give the HCDC
administrators “wide-ranging deference” in the manner in which they chose to
“preserve internal order and discipline and to maintain institutional security,”
especially when the restriction was “taken in response to an actual confrontation
with riotous inmates” and also served as a “preventive measure[] intended to reduce
the incidence ofthese or any other breaches of prison discipline.” Whitley, 475 U.S.
at 321 -22 (internal quotation marks and citation omitted).
Therefore, theHCDC’s restriction on Plaintiff s time out of his cell did not
constitute “punishment” within the meaning of the Due Process Clause. Bell, 441
U.S. at 538-40 (maintaining safety and internal order within institution are
permissible nonpunitive objectives); Holden, 663 F.3d 336, 340-41 (8th Cir. 2011)
(“Prison officials have a duty to protect prisoners from violence at the hands of other
prisoners.”); Schoelch v. Mitchell, 625 F.3d 1041, 1046 (8th Cir. 2010) (pretrial
detainee’s custodians have duty to protect detainee under Due Process Clause of
Fourteenth Amendment); Whitfield v. Dicker, 41 F. App’x 6, 7 (8th Cir. 2002)
(unpublished) (pretrial detainee’s Fourteenth Amendment claims failed because
detainee did not create genuine issue of material fact that defendants confined him
to administrative segregation for punitive reasons rather than for institutional
security); R ustv. Grammer, 858 F. 2d 411,413 (8th Cir. 1988) (cancellation of yard
time for 13 days as part of lockdown undertaken to control prison disturbance was
not Eighth Amendment violation when court was “satisfied that prison officials.. .
acted in good faith to restore order in the adjustment center and that each of the
restrictions imposed had a penological justification”); Rupertv. Mills, No. 3:14-CV161, 2015 WL 2419154, at *5 (E.D. Ark. May 20, 2015) (keeping all inmates,
including pretrial detainees, in cells 23 hours per day was reasonably related to
legitimate government objective of safety because of guard/inmate ratio; “Plaintiffs’
22

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 23 of 32 - Page ID # 566

vague allegations that they were denied outdoor recreation are insufficient to create
a genuine issue of material fact on this issue.”); Dalev. Brott, No. 12-383,2013 WL
12074952, at *12 (D. Minn. July 23, 2013), report and recommendation adopted,
No. 12-CV-0383,2013 WL 12074953 (D. Minn. Sept. 5,2013), aff’d, 562 F. App’x
551 (8th Cir. 2014) (pretrial detainee’s 42 days of confinement with limited hours
out of cell was not punishment that required due process when he still had access to
commissary, library cart, television, visitation, clergy visits, and when jail had
legitimate nonpunitive reasons for placing detainee in that housing unit and court
was required to give that determination “due deference”); Miller v. Powers, No.
6:08-4177, 2009 WL 255983, at *1, *5 (D.S.C. Feb. 2, 2009) (granting prison
official’s motion for summaiy judgment on pretrial detainee’s conditions-ofconfmement claim where detainee was subject to 11-day lockdown after riot
involving several inmates because evidence demonstrated that lockdown was based
upon security needs and desire to maintain order; “The actions taken by the SCDF
were not a form of punishment but essential to maintain good order and discipline
following a riot.”).
ii. Cold Conditions in Cell
Plaintiff claims that Defendant Bahensky deprived him of the single,
identifiable human need of warmth by keeping his cell and the dayroom at too low
of a temperature. See Tokar v. Armontrout, 97 F.3d 1078, 1082 (8th Cir. 1996)
(conditions of confinement may violate Eighth Amendment when conditions have
effect of depriving inmate of single, identifiable human need such as warmth, giving
example of low cell temperature at night combined with failure to issue blankets
(citing Wilsonv. Seiter, 501 U.S. 294,304(1991)).
First, there is no evidence that the conditions caused by the alleged cold
temperature in Plaintiff s cell and dayroom were objectively, sufficiently serious.
Plaintiff has presented no evidence that the temperature in those areas was ever
below the 65- to 80-degree range required by the Nebraska Minimum Jail Standards;
in fact, computerized temperature readings taken in response to Plaintiffs
23

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 24 of 32 - Page ID # 567

complaints were 72, 75.3, and 78.2 degrees, and at the same time Plaintiff
complained it was too cold, other inmates complained that the temperature was too
hot.
Second, even if the conditions were sufficiently serious, and even if Defendant
Bahensky was aware of such conditions, there is no evidence that he was deliberately
indifferent to an excessive risk to Plaintiff s health or safety. There is no evidence
that Plaintiff developed an illness related to the alleged cold. Rather, the undisputed
evidence shows that Plaintiff was seen and examined promptly by the HCDC
medical unit each time he logged a complaint related to his health and the ambient
temperature; was educated to wear socks, increase his water intake, and exercise;
and was issued an extra blanket.
Simply put, there is neither evidence of an excessive risk to Plaintiff s health
or safety caused by the allegedly cold temperatures nor deliberate indifference
thereto. Accordingly, Plaintiff has failed to establish that the temperature in his cell
and the dayroom was punishment in violation of the Fourteenth Amendment. See
Biesanz v. Ferguson, No. 10-5017, 2012 WL 601585, at *7 (W.D. Ark. Jan. 19,
2012), report and recommendation adopted, No. CIV. 10-5017,2012 WL 601590
(W.D. Ark. Feb. 23,2012) (jail’spolicy of keeping temperatures between 65 and80
degrees was not unconstitutional punishment when jail used computerized system to
monitor and control temperature, system was operated by maintenance staff, and
there was no evidence that such policy was not adhered to whenever possible);
Keatingv. Helder, No. CIV. 08-5243, 2011 WL 3703415, at *14 (W.D. Ark. Apr.
11, 2011), report and recommendation adopted, No. CIV. 08-5243, 2011 WL
3703264 (W.D. Ark. Aug. 23, 2011) (pretrial detainee’s allegations of cold
conditions in segregation cell did not establish deprivation of single identifiable
human need when evidence established that jail temperature was kept between 65
and 85 degrees and blankets were passed out each evening and collected in the
morning).

24

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 25 of 32 - Page ID # 568

iii. Lights-Out Policy Allowing 5-6 Hours Sleep
Plaintiffnext complains that he suffered from sleep deprivation at the HCDC
due to the night-time lighting conditions in his cell. According to the evidence, the
HCDC turned lights out at 11:00 p.m. and back on at 5:00 a.m. each day. (Filing 338 at CM/ECF p. 12.) Plaintiff claims that this schedule resulted in him getting only
five to six hours of uninterrupted sleep per night which, he says, “will lead [to]
[Ajlzheimer’s as well as other serious physical and mental diseases as well as a
shortened life-time.” (Filing 1 at CM/ECF p. 15; Filing 13 at CM/ECF p. 12.)
Other than Plaintiff s predictions of dire future consequences from his lack of
sleep, there is no evidence that Plaintiff suffered any illness or impairment from his
lack of sleep, much less a substantial risk of serious harm. In the absence of
conditions that posed a risk of serious harm to Plaintiff, there was nothing toward
which Defendant Bahensky could act with deliberate indifference. Further, having a
six-hour lights-out policy in the jail cells that balanced the needs of early risers and
night owls can hardly be characterized as a transgression of societal standards of
dignity, humanity, and decency, nor is there any evidence that thepolicy was for the
purpose of punishment. Accordingly, Plaintiff has failed to prove that the HCDC’s
lighting practices amounted to unconstitutional punishment. See Nicholas Cortez
Addison Adc #162451 v. Martin;No. 3:15CV00134,2016 WL 6634881, at *4 (E.D.
Ark. Nov. 8, 2016) (summary judgment granted in favor of defendant detention
center administrator when detainee alleged, among other things, that lighting in
detention center kept him awake because evidence indicated that facility lighting
was in compliance with Department of Health and Criminal Detention Facilities
Review Committee annual reports and detainee did not provide any responsive
proof); Biesanz, 2012 WL 601585, at *7 (jail’s policy of dimming cell lights at night
to simulate “night lights” for safety reasons was not unconstitutional punishment
when pretrial detainee alleged only that he lost sleep, but did not seek medical help
for his alleged sleeplessness and did not claim to have “any other physical
impairment from the constant lighting”); Philmlee v. Byrd, No. 4:10CV00221,2010
WL 6549829, at *3 (E.D. Ark. Oct. 21,2010), report and recommendation adopted,
25

8:18-cv-00489-RGK-PRSE Doc #38 Filed: 03/24/20 Page 26 of 32 - Page ID # 569

No. 4:10CV00221,2011 WL 1542655 (E.D. Ark. Apr. 25, 2011) (leaving dimmed
lights on at night in cells and in guard’s area did not deny detainee minimal civilized
measure of life’s necessities or constitute substantial risk of serious harm). See, e.g,
Wills v. Terhune, 404 F. Supp. 2d 1226, 1231 (E.D. Cal. 2005) (recommending
denial of plaintiffinmate’s motion for preliminary injunction where plaintiff claimed
constant lighting of his cell resulted in problems sleeping, headaches, visual
impairment, and other physical and emotional problems; evidence showed night
lighting was only bright enough for security concerns and there was no supporting
evidence of alleged physical impairment); Kingv. Frank, 371 F. Supp. 2d 977, 985
(W.D. Wis. 2005) (constant low-level illumination of prisoner’s cell during sleep
hours did not rise to level of Eighth Amendment claim wherehealth workers found
no serious medical consequences from the lighting and plaintiff demonstrated
neither “substantial risk of serious harm” nor deliberate indifference to that harm).
iv. Religious Services
Plaintiff claims that he is “a Christian and my beliefs require that I attend a
religious service conducted by an ordained minister weekly, and communion once a
month” and that the Defendants failed to accommodate those requirements. (Filing
13 at CM/ECF p. 16.)
The undisputed evidence establishes that HCDC Director Bahensky routinely
instructs personnel at the HCDC to schedule weekly religious programs for the
inmates, but it is difficult to locate and find religious program leaders to consistently
present to the particular classification unit where Plaintiff was housed (maximum
security, including sex offenders and those accused of crimes of violence or against
children). (Filing 33-11, Aff. Gottschalk^[7; Filing 33-1, Aff.Bahensky^] 13.) While
Plaintiff was housed at the HCDC, religious programs were offered to his unit
whenever a religious provider could be located and would appear for them.
According to the Assistant Director of the HCDC, there were at least 11 Christian
religious programs held at the facility and available to Plaintiff’s unit from January
to June 2018. (Filing 33-11, Aff. Gottschalk Tflf 4-7.) While it is uncertain exactly
26

8:18-cv-00489-RGK-PRSE Doc #38 Filed: 03/24/20 Page 27 of 32 - Page ID # 570

how many religious programs were offered to Plaintiffs unit from April to October
2018 when Plaintiff was housed at the facility, “such programs were offered
whenever a willing provider could be located to appear.” (Filing 33-11 at CM/ECF
P-3.)
Director Bahensky explained by letter to Plaintiff that the HCDC schedules
and provides church/bible study services for inmates depending upon the
participation of outside volunteers, and that Plaintiff was free to request and
coordinate a pastoral visit with the clergy he believed would meet his needs, but
Plaintiffmade no such requests. (Filing 33-4 at CM/ECF p. 30; Filing 33-11, Aff.
Gottschalk 7 (confirming that Plaintiff never made a request to see or talk by
telephone to a particular pastor or religious provider).)
The Eighth Circuit has held that mere deprivation of access to religious
services does not violate the Eighth Amendment because it does not “inflict
unnecessary or wanton inflictions of pain, nor [does it] involve ‘life’s necessities,’
such as water, food, or shelter.” Phillipsv. Norris, 320 F.3d 844,848 (8th Cir. 2003)
(37-day isolation without contact visitation or religious services did not violate
Eighth Amendment). Further, there is no evidence that HCDC personnel attempted
to punish Plaintiff with a lack of religious programming; rather, they actively sought
to schedule church services and bible study, but such programming was completely
dependent upon the unpredictable appearance of clergy who were willing to serve
Plaintiff s housing unit.
Under these circumstances, Plaintiff has failed to prove that the sporadic
religious activities available to his housing unit at the HCDC constituted punishment
within the meaning of the Fourteenth Amendment. Landers v. Frakes, No.
8:17CV371, 2019 WL 1517122, at *13 (D. Neb. Apr. 8, 2019) (no Eighth
Amendment violation to deprive inmate of ability to attend religious services while
in segregation because such deprivation did not inflict unnecessary or wanton pain
and did not involve “life’s necessities,” such as water, food, or shelter, citing
Phillips)-, Hodgson v. Fabian, No. CIV. 08-5120, 2009 WL 2972862, at *16 (D.
27

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 28 of 32 - Page ID # 571

Minn. Sept. 10, 2009), aff’d, 378 F. App’x 592 (8th Cir. 2010) (no violation of
Eighth Amendment to limit inmate access to certain tools or methods of practicing
his religion, such as incense and herbs, because he still had access to religious
services, was not subjected to any physical pain or injury, and was not denied any of
“life’snecessities”); Harris v. Moore, No. 2:04CV00073,2007 WL 4380277, at *8
(E.D. Mo. Dec. 13, 2007) (no violation of Eighth Amendment to restrict inmate’s
attendance at religious services to once a week, citing Phillips).
b. Inadequate Medical Care
Plaintiff complains that the HCDC failed to repair his broken glasses and
hearing aids; refused to give him shoulder surgery, proper treatment for back pain,
routine dental examinations, and a cancer check; and failed to investigate a medical
cause for his constant coldness.
To prevail on an Eighth Amendment claim for deprivation
of medical care, an inmate must show that the prison
official was deliberately indifferent to the inmate’s serious
medical needs. This requires a two-part showing that (1)
the inmate suffered from an objectively serious medical
need, and (2) the prison official knew of the need yet
deliberately disregarded it.
Schaub v. VonWald, 638 F.3d 905, 914 (8th Cir. 2011) (internal quotations and
citations omitted). “A serious medical need is one that has been diagnosed by a
physician as requiring treatment, or one that is so obvious that even a layperson
would easily recognize the necessity for a doctor’s attention.” Id. (internal quotation
and citation omitted).
Deliberate indifference is equivalent to
criminal-law recklessness, which is more blameworthy
than negligence, yet less blameworthy than purposefully
causing or knowingly bringing about a substantial risk of
serious harm to the inmate. An obvious risk of harm
28

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 29 of 32 - Page ID # 572

justifies an inference that a prison official subjectively
disregarded a substantial risk of serious harm to the
inmate. Deliberate indifference must be measured by the
official’s knowledge at the time in question, not by
hindsight’s perfect vision.
Id. at 914-15 (internal quotation marks and citations omitted).
Assuming for purposes of Defendants’ Motion for Summaiy Judgment that
Plaintiffhad an objectively serious medical need that was so obvious that a layperson
would easily recognize that a doctor’s attention was necessary, Plaintiff has failed
to show that Bahensky was deliberately indifferent to that need. On the contrary, the
Plaintiff s jail medical chart shows that each of his medical requests and complaints
were promptly attended to by the jail’s medical professionals supplied through the
county’s contractor, ACH. The ACH medical personnel who evaluated Plaintiff did
not believe, in their professional medical judgment, that his subjective complaints of
hearing and vision difficulty, back and shoulder pain, and other issues warranted
surgery, a “cancer check,” or any other special medical intervention or treatment.
Rather, Plaintiff was directed to perform conservative treatment options like
stretching, exercising, and increasinghis water intake and to contact his supervising
entity, the U.S. Marshals Service, for approval of routine eye, hearing, or dental
exams. Plaintiff’s desire for a particular form of treatment and routine preventative
examinations is not the proper basis for a constitutional claim. Barr v. Pearson, 909
F. 3d 919,921 -22 (8th Cir. 2018) (“[Wjhile inmates have a right to adequate medical
care, they have no right to receive a particular or requested course of treatment.
Indeed, doctors remain free to exercise their independent medical judgment. Thus,
[a] prisoner’s mere difference of opinion over matters of expert medical judgment
or a course of medical treatment fail[s] to rise to the level of a constitutional
violation.” (internal quotation marks andcitations omitted)).
The evidence shows that Director Bahensky fulfilled his responsibility to
afford Plaintiff with access to professional medical care, and he investigated and
responded to all medical issues of which Plaintiff made him personally aware.
29

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 30 of 32 - Page ID # 573

Plaintiff fails to explain how Director Bahensky, who was himself not a medical
professional, should have recognized Plaintiffs medical needs as serious or
requiring different treatment, when any such conclusion would have been at odds
with the assessment of the ACH medical professionals who evaluated Plaintiff. See
Holden v. Hirner, 663 F.3d 336, 343 (8th Cir. 2011) (“Prison officials lacking
medical expertise are entitled to rely on the opinions of medical staff regarding
inmate diagnosis and the decision of whether to refer the inmate to outside doctors
or dentists.”); Drake ex rel. Cotton v. Koss, 445 F.3d 1038, 1042 (8th Cir. 2006)
(“[I]t is not deliberate indifference when an official relies on the recommendations
of a trained professional.”); Meloy v. Bachmeier, 302 F.3d 845, 849 (8th Cir. 2002)
(“A prison ’ s medical treatment director who lacks medical expertise cannot be liable
for the medical staff s diagnostic decisions. Prison officials cannot substitute their
judgment for a medical professional’s prescription.” (citations omitted)).
There is simply no showing that Director Bahensky exhibited deliberate
indifference to Plaintiff s presumed objectively serious medical needs. Johnson v.
Leonard, 929 F.3d 569, 576 (8th Cir. 2019) (deliberate-indifferenceclaim involves
a “fact-intensive inquiiy that requires [the plaintiff] to clear a substantial evidentiary
threshold to succeed on his claim” (internal quotation marks and citation omitted)).
c. Conclusion on Claims Against Bahensky Individually
Plaintiffs Fourteenth Amendment claim against Defendant Bahensky
individually fails because he has not presented evidence that he was denied access
to life’s necessities, that any of the disputed conditions of Plaintiff s confinement
were imposed for the purpose of punishment, or that Defendant Bahensky knew of
and disregarded a substantial risk of serious harm tohim.
2. Clearly Established Constitutional Right
Because the Plaintiff has failed to demonstrate that Defendant Bahensky
violated his Fourteenth Amendment rights, either Plaintiffs claim fails as a matter
30

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 31 of 32 - Page ID # 574

of law or, alternatively, Bahensky is entitled to qualified immunity. Kahle v.
Leonard, All F.3d 544, 550 (8th Cir. 2007) (if an official did not deprive plaintiff of
a constitutional or statutory right, the plaintiff “does not need qualified immunity, as
he is not liable under § 1983 ”); Ambrose v. Young,AlA¥3d 1070,1077 n. 3 (8th Cir.
2007) (“[I]f the court finds no constitutional violation occurred, the analysis ends
and the issue of qualified immunity is not addressed.... This is not to say, however,
the defendant official is entitled to qualified immunity. Rather, if no constitutional
violation occurred, plaintiff s claim fails as a matter of law because plaintiff did not
prove an essential element of the § 1983 claim.” (citations omitted)).
Alternatively, because there was no constitutional violation, Defendant
Bahensky is entitledto qualified immunity. See Pearson v. Callahan, 555 U.S. 223,
243-44 (2009) (“An officer conducting a search is entitledto qualified immunity
where clearly established law does not show that the search violated the Fourth
Amendment.”); Kulkayv. Roy, 847 F.3d 637,646 (8th Cir. 2017) (finding individual
defendants entitled to qualified immunity when plaintiff failed to state Eighth
Amendment claim); Ransom v. Grisafe, 790 F.3d 804, 812-13 (8th Cir. 2015)
(because officers’ seizure of plaintiff did not violate Fourth Amendment, officers
were entitled to qualified immunity).
i

B. Claims Against Hall County and Bahensky in Official Capacity
Hall County cannot be held liable under 42 U.S.C. § 1983 without an
underlying constitutional violation by one of its individual officers. Because
Defendant Bahensky, a county officer, did not violate the Constitution, Hall County
likewise may not be held liable. Whitneyv. City ofSt. Louis, Missouri, 887 F .3d 857,
861 (8th Cir. 2018) (“absent a constitutional violation by a city employee, there can
be no § 1983 or Monell liability for the City”); see also Malone v. Hinman, 847 F.3d
949,955 (8th Cir. 2017) (“Because we conclude that Officer Hinman did not violate
Malone’s constitutional rights, there can be no § 1983 or Monell liability on the part
of Chief Thomas and the City.”); Sitzes v. City ofW. Memphis, 606 F.3d 461, 470
(8th Cir. 2010) (agreeing with district court that plaintiffs ’ Monell claims “could not
31

8:18-cv-00489-RGK-PRSE Doc # 38 Filed: 03/24/20 Page 32 of 32 - Page ID # 575

be sustained absent an underlying constitutional violation by the officer”); Sanders
v. City ofMinneapolis, 474 F.3d 523, 527 (8th Cir. 2007) (“Without a constitutional
violation by the individual officers, there can be no § 1983 or Monell.. . municipal
liability.”).
IV. CONCLUSION
Because Plaintiff did not establish a constitutional claim against Defendant
Bahensky individually, and because Hall County cannot be held liable under 42
U.S.C. § 1983 without an underlying constitutional violation by Bahensky, the
Defendants’ Motion for Summary Judgment must be granted.
IT IS ORDERED:
1.

The Defendants’ Motion for Summary Judgment (Filing 32) is granted;

2.

Judgment shall be entered by separate document.

and

DATED this 24th day of March, 2020.
BY THE COURT:
Richard G. Kop
Senior United States District Judge

32

8:18-cv-00489-RGK-PRSE Doc # 39 Filed: 03/24/20 Page 1 of 1 - Page ID # 576

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
GREGORY P. BARTUNEK,
Plaintiff,

8:18CV489

vs.
JUDGMENT
HALL COUNTY, NEBRASKA, and
TODD BAHENSKY in his individual and
official capacities,
Defendants.
Pursuant to the Memorandum and Order entered this date granting
Defendants’ Motion for Summary Judgment, this case is dismissed with prejudice.
Plaintiff is hereby notified that the filing of a notice of appeal will make him
liable for payment of the full $505.00 appellate filing fee regardless of the
outcome of the appeal. This is because the Prison Litigation Reform Act requires
an incarcerated civil appellant to pay the full amount of the $505.00 appellate filing
fee by making monthly payments to the court, even if he or she is proceeding in
forma pauperis. 28 U.S.C. § 1915(b). By filing a notice of appeal, Plaintiff will be
consenting to the deduction of the $505.00 filing fee from his prison account by
prison officials.
DATED this 24th day of March, 2020.
BY THE COURT:
Richard G. Kop
Senior United States District Judge

8:18-cv-00489-RGK-PRSE Doc #39-1 Filed: 03/24/20 Page 1 of 1 - Page ID # 577
UNITED STATES DISTRICT COURT
FOR THE District of Nebraska
Office of the Clerk
NOTICE - CIVIL APPEALS IN PRO SE CASES
The timely filing of a notice of appeal is mandatory and jurisdictional. Except as provided elsewhere in Rule 4
of the Federal Rules of Appellate Procedure, a notice of appeal must be filed in the district court within 30
days after the entry of the order or judgment appealed from. However, if the United States or an officer or
agency of the United States is a party, the notice of appeal must be filed in the district court within 60 days of
such entry. See Fed. R. App. P. 4(a).
Litigants should refer to Rule 4 for information about the circumstances under which a district court may
extend the time to file a notice of appeal, when a district court may reopen the time to file an appeal, and the
effect of the filing of various motions on the time limits for filing a notice of appeal. Fed. R. App. P. 4(a) and
(c)-

